<html>
<title> - ISIS POST-CALIPHATE: THREAT IMPLICATIONS FOR AMERICA AND THE WEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
   ISIS POST-CALIPHATE: THREAT IMPLICATIONS FOR AMERICA AND THE WEST

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2018

                               __________

                           Serial No. 115-66

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

        Available via the World Wide Web: http://www.govinfo.gov
        

                               __________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-927 PDF                   WASHINGTON : 2018                                   
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5

                               Witnesses

Hon. Ryan C. Crocker, Former Ambassador of the United States:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
General John M. ``Jack'' Keane, (Ret.-U.S. Army), Chairman of the 
  Board, Institute for the Study of War:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Dr. Daveed Gartenstein-Ross, Senior Fellow, Foundation for 
  Defense of Democracies:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Dr. Joshua A. Geltzer, Former Senior Director for 
  Counterterrorism, National Security Council:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28

                                Appendix

Question From Ranking Member Bennie G. Thompson for Ryan C. 
  Crocker........................................................    55
Questions From Honorable Shelia Jackson Lee for Ryan C. Crocker..    55
Question From Honorable Kathleen M. Rice for Ryan C. Crocker.....    55
Question From Ranking Member Bennie G. Thompson for John M. 
  ``Jack'' Keane.................................................    55
Questions From Honorable Sheila Jackson Lee for John M. ``Jack'' 
  Keane..........................................................    55
Question From Ranking Member Bennie G. Thompson for Daveed 
  Gartenstein-Ross...............................................    55
Questions From Ranking Member Bennie G. Thompson for Joshua A. 
  Geltzer........................................................    56
Questions From Honorable Kathleen M. Rice for Joshua A. Geltzer..    57



   ISIS POST-CALIPHATE: THREAT IMPLICATIONS FOR AMERICA AND THE WEST

                              ----------                              


                        Wednesday, May 23, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:47 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Rogers, Perry, Katko, 
Hurd, Ratcliffe, Gallagher, Fitzpatrick, Estes, Bacon, Lesko, 
Thompson, Jackson Lee, Langevin, Keating, Vela, Watson Coleman, 
Rice, Correa, Demings, and Barragan.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. My apologies, I was questioning the Secretary of 
State that made me a little bit late to this hearing. But the 
committee is meeting today to examine the near-term and long-
term homeland implications of the recent terrorist losses by 
ISIS, including the current state of ISIS in Iraq and Syria. 
The heightened threat posed by the foreign fighter Diaspora, 
the growing role of ISIS affiliates, and the significance of 
the virtual caliphate.
    Let's take a moment to welcome also the newest Member of 
our committee, Mrs. Debbie Lesko, representing Arizona's Eighth 
Congressional District. Welcome, it is good to see you.
    Mrs. Lesko. Thank you.
    Chairman McCaul. I now recognize myself for an opening 
statement. The terrorist attacks of 9/11 took the lives of 
almost 3,000 innocent people, and left our Nation in shock. In 
the aftermath, it was clear that serious changes need to be 
made to keep our homeland safe. While I believe we are safer 
today, terrorist threats persist. Terrorists and their 
followers are still killing innocent people and attempting to 
destroy our way of life. This has been made clear by the recent 
attacks against the West, London, Paris, Nice, Madrid, 
Manchester, Barcelona, Brussels, Berlin, and even New York have 
been targets of vehicle homicides, shootings, bombings, and 
stabbings.
    They are clearly following Sheik Adnani's call to kill by 
whatever means necessary, wherever they are. Although many 
jihadists are resorting to small-scale attacks, the thwarted 
plot to take down an airliner in Australia last summer was a 
reminder that our aviation sector is still their crown jewel of 
targets.
    I continue to be concerned about the security at last-
point-of-departure airports throughout the Middle East. Many of 
the world's most dangerous terrorists are only one plane ride 
away. They will not halt their blood-thirsty campaign to take 
innocent life unless they are directly challenged. Fortunately, 
we have had some recent success on the battlefield. Our 
military victory over the so-called caliphate in Iraq and Syria 
was a great achievement. However, there are remnants that 
remain in the Middle East and foreign fighters who have 
scattered throughout Europe and parts of Africa.
    Comprehensive strategy is needed so ISIS cannot rally, 
regroup, and rebuild from a new location. The strategy should 
address root causes that breed terrorists, including a lack of 
economic opportunity and good governance structures. We must 
also keep our eye on al-Qaeda. In recent years, al-Qaeda has 
expanded its global presence, and now is comprised of tens of 
thousands of fighters across 2 dozen branches. They, too, want 
nothing more than a devastating attack against the West.
    Mitigating the terror threat from these groups has always 
been one of my top priorities. At my direction, we established 
multiple task forces to discover ways that we can prevent 
terrorist entry into the United States. As a result of their 
work, we strengthen the Visa Waiver Program, enhanced our 
intelligence collection, and bolstered coordination to stop 
terrorist travel.
    Currently, we are examining ways that special interest 
aliens and potential foreign fighters are exploiting illicit 
pathways into our country from South and Central America. Just 
yesterday, ICE Director Thomas Homan, confirmed to me that, 
``Many known terrorists,'' are taking this path as well.
    America is facing threats from all directions. To keep our 
homeland safe, we need to be prepared to confront each one. So 
I would like to thank our witnesses for joining us. Each of you 
have served as, or advised as, America's top National security 
officials. Every Member of this committee is grateful for your 
service to our Nation, your time, and your expertise. I look 
forward to the discussion.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              May 23, 2018
    The terror attacks of 9/11 took the lives of almost 3,000 innocent 
people and left our Nation in shock. In the aftermath, it was clear 
that serious changes needed to be made to keep our homeland safe.
    While I believe we are safer today, terror threats persist. 
Terrorists and their followers are still killing innocent people and 
attempting to destroy our way of life.
    This has been made clear by recent attacks against the West. 
London, Paris, Nice, Madrid, Manchester, Barcelona, Brussels, Berlin, 
and even New York, have been targets of vehicular homicides, shootings, 
bombings, and stabbings.
    They are clearly following Sheik Adnani's call to kill by whatever 
means necessary, wherever they are.
    And although many jihadists are resorting to small-scale attacks, 
the thwarted plot to take down an airliner in Australia last summer was 
a reminder that our aviation sector is still their ``crown jewel'' of 
targets.
    I am continually concerned about the security at last points of 
departure throughout the Middle East.
    Many of the world's most dangerous terrorists are only one plane 
ride way.
    And they will not halt their bloodthirsty campaign to take innocent 
life unless they are directly challenged.
    Fortunately, we've had some recent success on the battlefield. Our 
military victory over the so-called caliphate in Iraq and Syria was a 
great achievement.
    However, there are remnants that remain in the Middle East, and 
foreign fighters who have scattered throughout Europe and parts of 
Africa. A comprehensive strategy is needed so ISIS cannot rally, 
regroup, and rebuild from a new location.
    This strategy should address the root causes that breed terrorists, 
including a lack of economic opportunity and good governance 
structures.
    We must also keep our eye on al-Qaeda. In recent years, al-Qaeda 
has expanded its global presence and is now comprised of tens of 
thousands of fighters across two dozen branches. They too, want nothing 
more than a devastating attack against the West.
    Mitigating the terror threat from these groups has always been one 
of my top priorities.
    At my direction, we established multiple task forces to discover 
ways we can prevent terrorist entry into the United States.
    As a result of their work, we strengthened the Visa Waiver Program, 
enhanced our intelligence collection, and bolstered coordination to 
stop terrorist travel.
    Currently, we are examining ways that Special Interest Aliens and 
potential foreign fighters are exploiting illicit pathways into our 
country from South and Central America.
    And just yesterday, ICE Director Thomas Homan confirmed to me that 
many known terrorists are taking this path as well.
    America is facing threats from all directions. To keep our homeland 
safe, we need to be prepared to confront each one.
    I would like to thank all our witnesses for joining us this 
morning. Each of you has served as, or advised, America's top National 
security officials.
    Every Member of this committee is grateful for your service, your 
time, and your expertise.
    I look forward to our discussion and to working with you to 
strengthen our homeland security.

    Chairman McCaul. With that, I now recognize the Ranking 
Member.
    Mr. Thompson. Thank you, Mr. Chairman, and thank our 
witnesses for their appearance today. Today, the committee is 
meeting to examine a threat posed by ISIS to America and the 
West. While ISIS has suffered significant losses in the wake of 
attacks by U.S.-led coalition forces under both the prior 
administration and the current one, the so-called caliphate is 
not yet gone. Indeed, even as ISIS has lost territory, funding, 
and fighters, its threats to the United States and our allies 
persist, albeit in new forms.
    As the so-called caliphate has shrunk, you and I both know 
ISIS has turned to the virtual space and its affiliates and 
followers to recruit and radicalize new members around the 
world. Rather than planning or directing sophisticated attacks 
carried out by individuals traveling from overseas, ISIS can 
inspire lone wolves right here at home on-line with few 
resources and relative little effort.
    This more-dispersed asymmetrical threat will be harder for 
the United States and our allies to combat. It is essential for 
the Trump administration to ensure a careful coordinated effort 
among all elements of our National security apparatus, 
military, and intelligence assets, diplomats working with 
foreign partners, and homeland security officials at home. It 
remains to be seen whether this administration is up to the 
task.
    As Members of the Congress and Members of the Committee on 
Homeland Security, our role will be to conduct close oversight 
of the Trump administration's effort. This is a critical 
juncture, as the remnants of ISIS on the ground attempts to 
regroup and determine the future trajectory of the 
organization. As we have witnessed before, these groups do not 
disappear, but often morph into a new entity that poses new 
threats.
    Unfortunately, as the virtual space becomes increasingly 
important to ISIS, the organization's existing efforts to 
recruit and radicalize followers are only furthered by the 
Trump administration's rhetoric and policies. President Trump's 
own hateful words about Islam and Muslims lend credence to 
ISIS's message about the West. This kind of rhetoric also 
undermines our relationship with key partners abroad, 
jeopardizing essential information-sharing relationships.
    At the same time, the President's comments stoke fear and 
division among the American people, which is exactly the goal 
of terrorist organizations like ISIS. If President Trump's 
rhetoric has been harmful in this regard, his policies have 
been worse. From the Muslim travel bans to the Trump 
administration's almost exclusive focus on Islamic groups in 
its counterterrorism efforts, his policies have actually made 
us less safe.
    Today, I hope to hear from our witnesses about the future 
of ISIS, and how the United States can best counter its threats 
to the homeland, both now and in the future, while upholding 
our American values. I appreciate the witnesses joining us 
today, and look forward to your testimony. With that, Mr. 
Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 23, 2018
    Today, the committee is meeting to examine the threat posed by ISIS 
to America and the West. While ISIS has suffered significant losses in 
the wake of attacks by U.S.-led coalition forces under both the prior 
administration and the current one, the so-called caliphate is not yet 
gone.
    Indeed, even as ISIS has lost territory, funding, and fighters, its 
threat to the United States and our allies persists, albeit in new 
forms. As the so-called caliphate has shrunk, you and I both know ISIS 
has turned to the virtual space and its affiliates and followers to 
recruit and radicalize new members around the world.
    Rather than planning or directing sophisticated attacks carried out 
by individuals traveling from overseas, ISIS can inspire lone wolves 
right here at home on-line with few resources and relatively little 
effort. This more disbursed, asymmetrical threat will be harder for the 
United States and our allies to combat.
    It is essential for the Trump administration to ensure a careful, 
coordinated effort among all elements of our National security 
apparatus--military and intelligence assets, diplomats working with 
foreign partners, and homeland security officials at home. It remains 
to be seen whether this administration is up to the task.
    As Members of Congress and Members of the Committee on Homeland 
Security, our role will be to conduct close oversight of the Trump 
administration's efforts. This is a critical juncture, as the remnants 
of ISIS on the ground attempt to regroup and determine the future 
trajectory of the organization.
    As we have witnessed before, these groups do not disappear but 
often morph into a new entity that poses new threats.
    Unfortunately, as the virtual space becomes increasingly important 
to ISIS, the organization's existing efforts to recruit and radicalize 
followers are only furthered by the Trump administration's rhetoric and 
policies. President Trump's own hateful words about Islam and Muslims 
lend credence to ISIS' message about the West.
    This kind of rhetoric also undermines our relationship with key 
partners abroad, jeopardizing essential information-sharing 
relationships.
    At the same time, the President's comments stoke fear and division 
among the American people, which is exactly the goal of terrorist 
organizations like ISIS. If President Trump's rhetoric has been harmful 
in this regard, his policies have been worse.
    From the Muslim travel bans to the Trump administration's almost 
exclusive focus on Islamic groups in its counterterrorism efforts, his 
policies have actually made us less safe. Today, I hope to hear from 
our witnesses about the future of ISIS and how the United States can 
best counter its threat to the homeland, both now and in the future, 
while upholding our American values.

    Chairman McCaul. Thank you. The Ranking Member yields back. 
Other Members are reminded, opening statements may be submitted 
for the record.
    [The statement of Honorable Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                              May 23, 2018
    Chairman Mccaul and Ranking Member Thompson, I thank you both for 
the opportunity to receive testimony on ``ISIS Post-Caliphate: Threat 
Implications for America and the West.''
    As ISIS adapts to the changing environment and attempts to survive, 
we must adapt to prevent them from spreading its deadly influence 
throughout the region and the world.
    I thank today's witnesses for their testimony:
  <bullet> The Hon. Ryan Crocker--Former Ambassador of the United 
        States;
  <bullet> Gen. Jack Keane (Ret.)--Chairman of the Board, Institute for 
        the Study of War;
  <bullet> Dr. Daveed Gartenstein-Ross--Senior Fellow, Foundation for 
        the Defense of Democracies; and
  <bullet> Dr. Joshua A. Geltzer--Former Senior Director for 
        Counterterrorism, National Security Council (Democratic 
        witness).
    This hearing will examine the threat of Islamic State in Iraq and 
Syria (ISIS), given its territorial losses.
    The hearing will also allow for the consideration of:
    1. ISIS' current operational state,
    2. The threat posed by returning foreign fighters,
    3. ISIS financing methods,
    4. The ``virtual caliphate,'' and
    5. The role of ISIS affiliates.
    ISIS continues to pose a threat as it continues to inspire and 
enable foreign fighters and Home-grown Violent Extremists to conduct 
attacks in the United States as well as strengthening ISIS affiliates 
world-wide in the wake of their territorial losses in Iraq and Syria.
    President Donald Trump's travel ban announced in January 2017 
against 7 Muslim-majority nations was reportedly used by ISIS as a 
recruitment tool, giving the militant group a major propaganda boost.
    The actions taken on the battlefield reduced the number, 
coordination, and ability of ISIS to retain territory, but their 
objectives to strike at the United States and other nations has not 
been eliminated.
                         current state of isis
    Since late 2017, U.S. officials have stated that ISIS has lost more 
than 90 percent of the territory it once held.
    While the U.S. intelligence community assessed that ISIS will seek 
to maintain a robust insurgency in Iraq and Syria, experts have 
predicted that ISIS will also plan international attacks and encourage 
sympathizers to carry out attacks at home.
    Moreover, ISIS's battlefield losses will not destroy its terrorism 
capabilities due to its significant investment in external operations 
over the last 2 years.
    As senior officials in the U.S. intelligence community have noted, 
ISIS has proven to be extremely resilient and continues to use attacks 
and propaganda to attract violent extremists and to protect its 
influence world-wide.
    ISIS fighters and communication networks have not been eliminated, 
but rather they have been dispersed in ways that will challenge the 
Trump administration to continue to fight obvious high-value targets, 
while also identifying and countering less obvious threats, including 
from Home-grown Violent Extremists, returning foreign fighters, and 
fighters who relocate to ISIS affiliates and conflict zones other than 
Iraq and Syria.
                     rise of the virtual caliphate
    ISIS's territorial decline has resulted in a decrease in volume of 
propaganda and a messaging shift away from a narrative about building 
the so-called caliphate and toward inciting violence.
    By November 2017, ISIS's media operation was producing 20 materials 
per week, down from a high of more than 200 materials per week in 2015.
    ISIS has also shifted to encrypted applications.
    These tactical and messaging shifts will cause continued problems 
for law enforcement and intelligence services seeking to counter ISIS.
    ISIS has proved capable in their on-line messaging and recruitment 
utilizing a ``virtual'' means to ``real-world'' end. Many have begun 
framing ISIS's future in terms of a ``virtual caliphate.''
                            foreign fighters
    The mobilization of foreign fighters to Syria and Iraq outnumbered 
all other mobilizations of jihadist conflicts during the past 40 years. 
At least 40,000 fighters from 120 countries traveled to Iraq and Syria 
to engage in warfare, estimates hold. The foreign fighter flow came to 
a virtual standstill, however, as ISIS began to lose territory and 
countries implemented better measures to prevent travel.
    Authorities have expressed concern about the lack of specific 
numbers of returnees and unaccounted-for foreign fighters.
    A New York Times report in February 2018 shows that thousands of 
ISIS foreign fighters and family members escaped the U.S. military 
campaign in eastern Syria to the south and west through Syrian army 
lines, calling into question whether the group has been largely 
defeated.
    There are also large discrepancies in statistics collected by the 
United Nations from member states between the total number of foreign 
fighters and those recorded as having been killed, detained, returned, 
or relocated.
    In January 2018, the United Kingdom, for instance, noted that 
around 50 percent of its foreign fighters remain unconfirmed.
                  home-grown violent extremists (hves)
    The most immediate threat to the United States is violence carried 
out by Home-grown Violent Extremists (HVEs).
    ISIS's capacity to reach sympathizers around the world through its 
social media capability gives the group access to large numbers of 
HVEs.
    In the United States the larger issue is the influence they be able 
to have over disaffected youth or the mentally ill who may be 
vulnerable to ISIS messaging.
    The greatest threat comes from ISIS is its training material on how 
to plan and carry out an attack that may provide instruction to those 
in the United States who wish to committee mass violence.
    On March 2, 2018, in the city of Austin Texas, the first of 7 bombs 
were detonated in what became a terrorizing series of attacks that 
killed Anthony Stephan House, 39, and Draylen Mason, 17.
    On April 15, 2013, two homemade bombs detonated near the finish 
line of the annual Boston Marathon, killing 3 people and injuring 
several hundred others, including 16 who lost limbs.
    It has been 5 years since that terrible day, but we still remember 
the people of Boston, who said they would not be made to fear the 
terror that hides its face, to attack the innocent.
    An essential component of the success that local, State, and 
Federal law enforcement had during the investigation of the Boston 
Bombing was the full engagement of the public who shared valuable 
information with authorities, which provided important clues that led 
to the identification and ultimate capture of the terrorists.
    Today's hearing is important because it allows Members of the 
Homeland Security Committee to assess the threat that ISIS continues to 
pose to the United States.
    Prior to September 11, 2001, the Federal Government had a wide 
range of law enforcement, National security, and benefits management 
agencies that collected information, but jealously guarded this 
information from other agencies.
    The 9/11 Commission Report allowed an in-depth assessment of the 
failures that led to the horrific terrorist attacks against the United 
States that cost the lives of nearly 3,000 people.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Chairman McCaul. We are pleased to have a distinguished 
panel of witnesses before us here today. First is probably 
the--when I think of an ambassador, I think of Ryan Crocker. He 
is currently a diplomat-in-residence of Princeton University, 
on leave of absence from Texas A&M. He has served in probably 
more hotspots than any Ambassador I know. I had the honor to be 
with him overseas in many of these locations, and saw his 
service to his country.
    It is amazing to think, sir, you served in, you know, in 
Lebanon when the Marines were killed in Beirut. You served in 
Syria when we had an ambassador in Syria. You served in 
Pakistan. Served in Iraq. Served in Kuwait. Then the last time, 
I think, I saw you overseas in Kandahar and Kabul in 
Afghanistan. Your service is really extraordinary as a 
diplomat, and I know that is why you received the Presidential 
Medal of Freedom, the Nation's highest civilian award, in 2009.
    Second, we have General Jack Keane, he is the president of 
GSA Consulting, serves as chairman of the board for the 
Institute for the Study of War. He served as a 4-star general. 
Completed 37 years of public service in December 2003, 
culminating his appointment as acting chief of staff and vice 
chief of staff to the United States Army. Since 2004, General 
Keane conducted frequent trips to Iraq and Afghanistan for 
senior defense officials with multiple visits during the surge 
in that period in both countries. We thank you, sir, for your 
service as well.
    The third witness is Dr. Daveed Gartenstein-Ross, a senior 
fellow at the Foundation for Defense of Democracies, an expert 
on jihadist movements. He is also the chief executive officer 
of Valens Global, a fellow with Google's Jigsaw, an associated 
fellow at the International Center for Counterterrorism, the 
Hague, and adjunct assistant professor at Georgetown 
University's security studies program. I have had the 
opportunity to visit with you in my office. Thank you for being 
here as well.
    The fourth and final witness is Dr. Joshua Geltzer, who is 
the founding executive director of the Institute for 
Constitutional Advocacy and Protection, as well as visiting 
professor of law at Georgetown University Law Center. Dr. 
Geltzer served from 2015 to 2017, a senior director for 
counterterrorism at National Security Council, the NSC, and 
thank you, sir, also for being here. Your full written 
statements will appear in the record.
    The Chair now recognizes Ambassador Crocker for an opening 
statement.

 STATEMENT OF RYAN C. CROCKER, FORMER AMBASSADOR OF THE UNITED 
                             STATES

    Mr. Crocker. Thank you, Mr. Chairman, Ranking Member 
Thompson, Members of the committee. It is a privilege to be 
here at this very important time, a moment at which, as both 
you, Mr. Chairman, and Mr. Thompson noted, that Islamic State 
is on the verge of military defeat. They have been defeated in 
Iraq, and we are in a mopping-up mode now, I think, in Syria. 
So the hearing is very timely and is very important.
    It doesn't stop with military defeat of ISIS, as you both 
have suggested. I have seen this movie before, in part. I was 
in Iraq as ambassador from 2007 to 2009, at the time of the 
surge, and at a time when the horrific bloodshed in that 
country was wound down. As the surge took effect, but 
especially as the political surge, if you will, took effect. 
The efforts to bring different Iraqi leaders together for a 
common cause.
    So as we look at the Islamic State on down the road here, I 
think it is very important not to believe that because they 
were defeated on the field, they have gone away. Islamic 
State's predecessor, al-Qaeda in Iraq, was something that 
General Petraeus, and later, General Odierno, as well as 
myself, were fully focused on. But even at the height of the 
surge, we knew we had not completely eliminated them. Little 
pockets in Mosul, little pockets up the Euphrates River Valley, 
and it is, of course, in the Euphrates River Valley that we are 
operating with our allies today to try and destroy that 
presence. But even then, even when we have no more military 
targets, we will still have an adversary. That is what al-Qaeda 
in Iraq showed us. They went to ground and they waited for 
better days. Better days for them, or course, came with the 
beginning of the Arab Spring, particularly in Syria.
    So that is what we will see, I am ready to predict, with 
Islamic State. Because ultimately, Islamic State is, itself, 
not the problem, it is the symptom of the problem. You, Mr. 
Chairman, I think, got this exactly right. The lack of good 
governance in this region has given the space for groups such 
as al-Qaeda, such as Hezbollah, back in Lebanon at a time I was 
there, and, of course, for Islamic State. So unless these 
governance issues are addressed, the problem will still be 
there, and we will see another manifestation somewhere down the 
road. Maybe it will use Islamist's language, maybe it won't. We 
don't know. We do know that the failure of governance is going 
to create space unless or until those problems of governance 
are addressed.
    I would say one thing here briefly about the United States. 
We are in 100-year cycle now, more or less, of momentous events 
related to the First World War. In the peace after the First 
World War, we were basically not present. The British and the 
French were quite ready to administer the Middle Eastern lands 
of the former Ottoman Empire, they did not really want to see 
us there. In any case, with the Senate in 1918 making it clear 
it was not going to ratify our membership in the League of 
Nations, we had no role to play.
    After World War II, it was completely different. We 
designed the post-war order. The San Francisco conference gave 
us the United Nations, Bretton Woods, the International 
Monetary Order, and not only did we create it, we led it. We 
led it for almost 70 years. Beginning in 2009, we saw a shift. 
Should the United States play that role or should it not? Those 
questions were asked then, those questions are being asked 
today.
    I would say, from my perspective as a foreign policy 
National security professional, while it was an imperfect order 
that we would be wise to work to preserve it, an order that we 
continue to lead because the world pretty clearly is not ready 
to lead or come together without us. Thank you, Mr. Chairman, 
and I look forward to your questions.
    [The prepared statement of Mr. Crocker follows:]
                 Prepared Statement of Ryan C. Crocker
                              May 23, 2018
    Mr. Chairman, Ranking Member Thompson, Members of the committee, it 
is a privilege to be here today to discuss this critically important 
topic. We are close to the moment when the Islamic State will no longer 
hold ground in Iraq or Syria. When one considers that less than 4 years 
ago, an ascendant Islamic State had surged through western Iraq, taking 
its second-largest city Mosul in a matter of hours and had reached the 
gates of Baghdad, this is a stunning development. It demonstrates the 
extraordinary capabilities of our military forces, exercised in an 
extraordinarily complicated environment. It also shows the importance 
of U.S. leadership. We were not in this fight alone. Sevnty-five other 
nations have joined us, making this a truly global coalition. Islamic 
State threatened the world; the world responded by coming together to 
eliminate their so-called caliphate.
         isis and the failure of governance in the middle east
    But is this fight really over? Does Islamic State teeter on the 
brink of extinction? Both the Trump and Obama administrations have 
largely treated Islamic State as a military problem with a military 
solution. That is a dangerous over-simplification. Islamic State itself 
is not the problem. It is the symptom of a much more complex, largely 
political problem: A chronic failure of governance.
    We are in a cycle of 100-year anniversaries that are relevant to 
our conversation here. WW I ended a century ago. The question of the 
political future of the lands of the Middle East had to be answered by 
the victorious Allies. The area had been a part of the Ottoman Empire 
for centuries. The future of this region was on the agenda for the 
Versailles peace talks, which concluded with the treaty of Versailles 
in 1919. But this was a formality. Those decisions had already been 
made by the British and the French, embodied in the Sykes-Picot accord 
of 1916 which was still secret when the Versailles talks began. Under 
its terms, these two countries would divide the region between them. 
The lines on the map that define the Middle East today were largely 
drawn by foreigners. As the British and French took over the mandates 
assigned to them, one element that was not on their minds was good 
governance, the building of stable institutions, respect for the rule 
of law, and preparations for peoples of the area to govern themselves. 
To project the image of independent states, the mandatory powers 
installed monarchies in a number of areas--Egypt, Iraq, Transjordan and 
by the Italians in Libya. These monarchies had no connections to the 
peoples over which they allegedly ruled, and certainly no interest in 
establishing the institutions and traditions of good governance.
    Lacking legitimacy and perceived as puppets of the imperialists, 
these monarchies were overthrown, replaced largely by military rulers. 
Other ``isms'' were developed to replace imperialism and monarchism. In 
Egypt, it was Arab nationalism personified by Gamal abd-al Nasser. In 
Iraq, undiluted authoritarianism following the 1958 coup by Abdal Karim 
Qassim. Later, a Libyan military officer named Qadhafi overthrew King 
Idris. Other isms followed--Arab socialism (Baathism) in Iraq and 
Syria. Communism in South Yemen. Republicanism in Tunisia and Egypt 
post-Nasser. They all had one element in common: They failed to provide 
good governance for their people, and they all failed. This was the 
essence of the Arab Spring--a popular demand for better governance. But 
that takes time and respect for the rule of law as well as the 
development of institutions that provide for the common good. These are 
in exceedingly short supply throughout the region. In Egypt, for 
example, it was no surprise that the Muslim Brotherhood won the first 
election since it was the only political party independent of the 
Mubarak regime. But it was also no surprise it failed completely to 
provide good governance. It had no experience and found no experience 
of institutionalized democracy.
    Now we have yet another ism, Islamism. It too has failed. 
Interestingly, a recently-translated trove of documents suggests that 
Islamic State understood the problem and was making an effort to 
develop the skills of governance.
    So what happens next? It is impossible to predict with accuracy. 
However, it is a safe bet that without significant progress toward 
better governance in the region, another ism will arise. Perhaps it 
will be ISIS 2.0, just as ISIS was al-Qaeda 2.0. Perhaps it will be of 
a completely different nature. Whatever it is, it will not be good. To 
borrow from the great Irish poet W.B. Yeats, ``What rough beast, its 
hour come around at last, slouches toward Bethlehem to be born?''
    And what does it mean for our interests in the region, especially 
in Iraq and Syria after the military defeat of the Islamic State? As we 
consider these questions, we need to look at Iraq and Syria as related 
but distinct challenges. I will start with Iraq.
                                  iraq
    As you know so well, Mr. Chairman, we have been here before. I was 
Ambassador to Iraq during the surge, 2007-2009. As you know, the surge 
was built on the Awakening movement in the Sunni province of Anbar, 
when Iraqi tribal leaders who had stood with Islamic State's 
predecessor, al-Qaeda in Iraq, turned against them with our 
encouragement and support. By any measure, the surge was a success. 
Shortly before my departure from Iraq in February 2009, I visited 
Ramadi, the once and future stronghold of al-Qaeda and its successor, 
the Islamic State. The security situation was so good that Awakening 
leader Ahmad Abu Risha and I spent an hour walking through the Ramadi 
market. This owed a great deal to the courage and sacrifice of our 
troopers, so brilliantly led by General Petraeus and later by General 
Odierno. But even at the height of the surge, there remained small 
pockets of al-Qaeda in Mosul and the Euphrates river valley. Why? 
Because elements of the Sunni Arab population in those areas feared the 
Shia-led government in Baghdad at least as much as they feared al-
Qaeda. Those elements, including future ISIS leader Abu Bakr al-
Baghdadi, went to ground and awaited better days.
    Those days came with the beginning of a civil war in Syria in March 
2011 and the military and political withdrawal of the United States 
from Iraq, also in 2011. In our absence, Prime Minister Maliki and 
other Iraqi leaders reverted to a default position of zero sum 
thinking. When we were there in force, politically as well as 
militarily, we could help broker deals among Iraqis that they could not 
reach by themselves. For many leaders, compromise was a threat. In 
their world, compromise meant a concession, concessions equaled defeat 
and defeat meant death. Often in this country, we become impatient with 
leaders in countries like Iraq who do not speedily commit to the 
institutions of democracy. We consider that they lack political will 
and do not deserve our support.
    The reality is more complicated. In the case of Maliki, his 
greatest fear was of a military coup that would return the Baathists to 
power. Given Iraq's history, this was not completely unreasonable. 
Iraq's first military coup came in 1958, and was followed by a series 
of others until the Baath cemented its power a decade later. When we 
were there in force, we constituted a security guarantee to Maliki that 
allowed him to make senior military appointments on the basis of 
ability. As Dave Petraeus can tell you, it was not easy but we could do 
it. After we left, Maliki's fears took over and commanders were not 
appointed on the basis of proven combat experience or leadership 
qualities. They were chosen on the basis of one quality only--loyalty. 
These were the commanders who fled the field as ISIL advanced.
    The post-ISIS phase in Iraq is significantly different and more 
encouraging than that which prevailed before ISIS swept through the 
country. Iraqi security forces, with new commanders, performed well 
through a long, hard ground campaign. They took significant casualties 
but morale and commitment remained significantly high. The United 
States has reinvested in Iraq. Our advisors, air power, and enablers 
had a meaningful impact on the campaign, and the Iraqis know it. We 
have some leverage, and the opportunity to use it.
    Why is this important from a homeland security perspective? Simply 
put, we are more secure if we are dealing with potential threats well 
before they reach our borders. Ultimately, it is good governance in the 
region that will prevent the re-emergence of terrorist organizations 
that target Americans, whether at home or abroad. In the interim, doing 
what we can to insure that the Iraqi government does not take actions 
that will further alienate its Sunni Arab population and give space to 
those who wish us harm is an imperative. If the Iraqis can get the 
politics right with our help, the military/terrorist threat ISIS has 
posed can be contained. If the politics are not right, we will be 
facing new security challenges in the region and at home.
    Here, I would like to say a word about terrorism. Over a long 
career in the Middle East, I have seen a lot of it. It's part of life 
in the Foreign Service. I was an ambassador six times. In three of 
those countries, a predecessor as the American ambassador was 
assassinated. One of those was Frank Meloy in Lebanon. He and another 
Embassy officer were kidnapped and then killed in Beirut. The 
organization that murdered them was the Popular Front for the 
Liberation of Palestine (PFLP). Was that an Islamic terrorist 
organization? No--its communist ideology was the antithesis of any 
religion, including Islam. But perhaps its leader harbored secret 
Islamic tendencies? Its leader was George Habash, a Palestinian 
Christian.
    I make this point as a reminder that terror is a tactic, not an 
ideology. When there are major unresolved political problems in a 
society or a country that cannot be dealt with through the political 
process because of a lack of institutions and the absence of rule of 
law, the chances increase that some in that society will use terror to 
pursue their agenda. Von Clausewitz was right--war, whether regular or 
irregular, arises from politics and to politics it must return. There 
are no more purely military problems any more. This includes ISIS. Its 
roots lie in politics, and unless those political problems are 
addressed, it--or something like it--will be back.
    In Iraq, we have something to work with. By all accounts, Iraqi 
government forces have avoided retaliatory actions against the 
overwhelmingly Sunni civilian population. It will be important to stay 
politically engaged with the Government and support a stabilization 
process that will be political as well as economic. Revitalization of 
the 2008 Strategic Framework Agreement would be a good place to start. 
It provides a broad basis for bilateral cooperation in the economic, 
political, technological, and security fields. On the latter, it is 
vital that we continue the robust train-and-equip mission with Iraqi 
security forces that we began in 2014. We must not repeat the mistake 
we made in 2011 of disengaging from Iraq. That created the conditions 
that ISIS exploited so effectively 3 years later.
    Iraq has just completed its fourth National election since 2006. 
The process of Government formation is likely to be long and difficult. 
We should support principles in this process, not individuals. In so 
doing, we will demonstrate a sharp contrast with Iran whose direct 
interference is likely to anger and alienate the Iraqi people. The 
Iranian influence in Iraq is a challenge to some of our core interests 
in the development of an inclusive, capable government that can address 
some of the ills of bad governance that has plagued the country for 
many years. Our best defense is the kind of constructive engagement 
that will offer an alternative to the heavy-handed effort by Iran to 
create clients, not partners.
                                 syria
    If Iraq is hard, Syria is harder. The military defeat of ISIS will 
not end the civil war, nor will it lead to disengagement and withdrawal 
by Iran and its proxies. Iran is in Syria for the long haul, as it has 
demonstrated virtually since the establishment of the Islamic Republic. 
The United States and Israel paid a terrible price in Lebanon when Iran 
solidified its strategic partnership with the Asad regime and both 
worked to establish Hizballah. It is against this history that we must 
determine the future of our own military presence. Do we stay or do we 
go? If we stay, for what purpose and at what risk? If we go, with what 
consequences?
    The Syrian conflict is as complex as it is dangerous. An 
unprecedented number of international, regional, and local actors are 
involved. The United States and Russia. Turkey, Iran, Iraq, Israel, 
Jordan, Lebanon, Saudi Arabia, the United Arab Emirates and Qatar. 
Hizballah and other Iran-supported Shia militias, al-Qaeda, the Syrian 
Free Army, Syrian Democratic Forces, the YPG, Ahrar al-Sham and many 
others, including ISIS. ISIS may be on the verge of a military defeat, 
but that will not eliminate them as a future force. We saw the same 
thing in Iraq a decade ago. In Syria as well as in Iraq, we can expect 
ISIS to go to ground and wait for more favorable circumstances. And in 
the chaos that is Syria, there will be plenty of places to hide.
    I spent a number of years in Lebanon during its civil war. The 
constellation of actors in Lebanon mirrored those in Syria, but on a 
smaller and less complex scale. The hot phase of the Lebanese civil war 
lasted 15 years, and ended only when the Syrian army occupied the 
Lebanese Presidential Palace. No army is going to occupy the Peoples 
Palace in Damascus to end that conflict.
                           the united states
    Mr. Chairman, this is a moment to consider the role of the United 
States in the region and the world. Again, I will take you on a brief, 
100-year journey. At Versailles in 1919 and after, the United States 
played no significant role in the Middle East or the world. The 1918 
elections returned an isolationist Congress that would not ratify our 
membership in the League of Nations, Wilson was ill and the British and 
French did not want the United States challenging their influence.
    What the world effectively got was a two-decade truce in the middle 
of one horrific world war. America played a very different role after 
World War II. The post-war international order was largely created by 
the United States. The United Nations was born in the San Francisco 
conference. The international financial order was created at Bretton 
Woods. We led on the establishment of NATO. We faced down the Soviet 
Union in Berlin, in Iran, in Turkey and in Greece. We launched the 
Marshall Plan. We rebuilt the economies of allies and adversaries 
alike. In short, we not only created the new order, we led it. There 
was broad agreement among Republican and Democratic administrations 
that the United States could and should lead. There were setbacks, 
certainly. But almost seven decades of U.S. leadership brought broad 
prosperity and averted another massive ground war.
    But beginning in 2009, we called into question our own leadership 
role. The slogan that we can't do everything became a byword for not 
doing much of anything. America first came to be translated as America 
alone.
    Mr. Chairman, American leadership made the world a safer place. I 
know the American people are tired of wars. I get that. I spent 7 years 
of my life post-9/11 in Afghanistan, Iraq, and Pakistan. I was in Iraq 
and Afghanistan beginning in 2001. I returned to all three countries as 
the American ambassador. So I get it about being tired. But there are 
worse things.
    Mr. Chairman, in my judgment American leadership is vital to 
homeland security. I hope very much we will reassert that role. The 
Middle East and the world will not run by themselves.

    Chairman McCaul. Thank you, Ambassador. The Chair 
recognizes General Keane for his opening statement.

STATEMENT OF GENERAL JOHN M. ``JACK'' KEANE, (RET.-U.S. ARMY), 
     CHAIRMAN OF THE BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Chairman McCaul, Ranking Member Thompson, 
distinguished Members of the committee, thank you for inviting 
me. I am honored to be here today with my esteemed colleagues, 
particularly my friend here, Ambassador Crocker, America's most 
accomplished Middle East envoy. In the summer of 2012, the 
Islamic State of Iraq, then an al-Qaeda affiliate under the 
command of al-Baghdadi was operating in the shadows around 
Baghdad, when he made the most critical decision in his reign 
as a jihadist leader. He seized the opportunity to take 
advantage of the stalemated Syrian civil war. Al-Baghdadi 
correctly assumed that the civil war participants, largely 
fighting in western Syria, would be so preoccupied that he 
could occupy Sunni-Arab territory in northeastern Syria with 
little resistance, and establish a bona-fide safe haven with 
several hundred fighters, mostly Iraqis.
    Al-Baghdadi grew the organization to 30,000 fighters in 18 
months, invading Iraq in January 2014, by seizing Fallujah. In 
June, they captured Mosul, gained world-wide attention by 
forcing the collapse of the Iraqi Army. The exponential growth 
of ISIS in less than 2 years, using the internet exclusively to 
recruit with sophisticated cinematography and messaging was a 
remarkable historic achievement.
    With the eventual defeat of ISIS some 3 years later in 
terms of retaking territory that was lost in 2017 in Iraq--and 
also in Iraq and Syria, the ISIS caliphate was decimated, 
losing 90 percent of its territory, and reduced to several 
thousand fighters in Iraq and Syria combined. ISIS is badly 
damaged, but it is not defeated, as the Chairman and Ranking 
Member have mentioned.
    It is still capable of insurgency, and its ability to 
inspire others to engage terrorist attacks. Indeed, ISIS is 
still a thriving global terrorist organization. The virtual 
ISIS caliphate maintains the connectivity with ISIS affiliate 
organizations world-wide. ISIS uses it also to help maintain 
its external terrorist organization, and to direct or support 
network cells and individuals. But mostly, to inspire others to 
kill and maim their own people.
    The virtual caliphate, after considerable amount of effort, 
has finally been damaged, mainly because of physical 
destruction due to combat operations, but also due to offensive 
cyber operations that the United States has conducted. Further, 
the U.S. Government has enlisted the assistance of social 
media, such as Facebook, Twitter, and YouTube, to identify 
potential terrorist accounts and remove violent content from 
their platforms.
    In protecting the homeland, the best defense since 9/11 is 
still a good offense, the United States and coalition partners 
deployed to fight terrorists in their breeding grounds 
overseas. U.S. law enforcement agencies at home have remained 
vigilant in thwarting terrorist plots, as demonstrated by the 
fact that there still has not been a major terrorist attack 
since 9/11.
    However, despite law enforcement's best efforts, preventing 
inspired assailants from carrying out terrorist attacks remains 
a relentless challenge, as we experienced three attacks since 
2015 in San Bernardino, Orlando, and New York. It is virtually 
impossible to monitor everyone of interest, which means we need 
the assistance of an informed population to report suspicious 
behavior.
    In looking ahead, despite the success to date over ISIS in 
Iraq and Syria, the remaining ISIS fighters and leadership 
should be driven out of southeastern Syria along the Euphrates 
River Valley. The Iraqi security forces assisted by the United 
States and coalition partners must maintain its vigilance in 
Iraq to prevent a resurgence of ISIS. Key is the formation of a 
government in Iraq after this recent election that enfranchises 
the Sunnis and the Kurds, and does not make the mistake of 
previous Iraq governments that disenfranchised the Sunnis.
    Political unity is vital to prevent the rise of ISIS again 
or another radical Islamic group. It appears likely that ISIS 
will resort to traditional terrorist tactics and attempt to 
exert control in weakly-governed space across Africa, the 
Middle East, South and Southeast Asia. They will always be 
seeking sanctuary or safe haven, and when they do, it must be 
rapidly destroyed.
    Europe, more vulnerable than us, could be the next 
battlefront as ISIS activates and motivates followers to carry 
out attacks and prove it is still a threat to the West.
    In conclusion, there is an understandable desire to declare 
victory over ISIS after retaking the lost territory in Iraq and 
Syria and go home. In my view, that is a serious strategic 
blunter. The lesson learned from the premature withdrawal from 
Iraq in 2011 before political stability was achieved is, we got 
ISIS as a result.
    Similarly, we refused to assist the newly-elected moderate 
government in Libya after Qadhafi was deposed in 2011, and we 
got Benghazi in 2012, a failed state shortly thereafter. When 
we stay post-conflict to ensure political stability, as in 
Germany, Italy, and Japan, post-World War II, in South Korea, 
post-Korean War, and in Bosnia and Herzegovina for almost 9 
years, significant and lasting success is achieved.
    The United States, our allies, and partners know we are in 
a generational struggle in confronting the ISIS threat and, in 
general, radical Islam where the key to long-term success is 
defeating their ideology and certainly their propaganda, as 
well as addressing the conditions that help spread it, such as 
political and social injustice, lack of economic opportunity, 
corruption and governance instability.
    Thank you. I look forward your to questions.
    [The prepared statement of General Keane follows:]
                  Statement of John M. ``Jack'' Keane
                              23 May 2018
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for inviting me to testify today. Am honored 
to be here with my esteemed colleagues, particularly Ambassador 
Crocker, America's most accomplished Middle East envoy, who I had the 
pleasure of visiting on many occasions when he was Ambassador to Iraq 
and Afghanistan during the 9/11 wars, while I was conducting 
assessments for General Petraeus.
    In the summer of 2012 the Islamic State of Iraq, an al-Qaeda 
affiliate organization, under the command of Abu Bakr al-Baghdadi was 
operating in the shadows and territory in the belt around Baghdad when 
al-Baghdadi made the most important strategic decision in his reign as 
a jihadist leader; he seized the opportunity to take advantage of the 
stalemated Syrian civil war, after Iran and Russia significantly 
assisted the Assad regime in halting the momentum of the Syrian 
opposition forces. As such, al-Baghdadi correctly assumed that the 
civil war participants, largely fighting in western Syria, would be so 
preoccupied that al-Baghdadi could occupy Sunni Arab lands in 
northeastern Syria with little to no resistance and establish a bona 
fide safe haven with several hundred Iraqi fighters.
                    the caliphate in iraq and syria
    Unprecedented in the history of terrorist organizations, al-
Baghdadi grew the organization to 30 thousand fighters in 18 months, 
invading Iraq in January 2014 and seizing Fallujah. By June they were 
40 thousand strong and captured Mosul, the second-largest city in Iraq, 
which gained world-wide attention by forcing the collapse of an Iraqi 
Army whose previous competent leaders were purged by PM Maliki as he 
pocketed the funds intended to train the Army for the past 3 years. The 
exponential growth of ISIS in less than 2 years using the internet 
almost exclusively to recruit with sophisticated cinematography and 
messaging was an outstanding achievement and quite unprecedented. Many 
of the fighters came from throughout the region, also Afghanistan, with 
approximately 5,000 alone from western Europe and about 250 from the 
United States. In June 2014, al-Baghdadi, announced from the Grand 
Mosque in Mosul the establishment of the Islamic State, the so-called 
ISIS caliphate.
    Regrettably, it took the United States 9 months to respond to PM 
Maliki's emergency request in January for air power support when it was 
finally delivered 2 months after the fall of Mosul in August 2014.
    With the final defeat of ISIS in Mosul and Raqqa in 2017, the ISIS 
caliphate was decimated. ISIS has been badly damaged but not defeated 
in its insurgency capacity and its ability to inspire others to engage 
in terrorist attacks elsewhere. Indeed ISIS is a thriving global 
terrorist organization. At its peak ISIS governed 7.7 million people 
and controlled roughly 40 thousand square miles of land essentially 
forming a proto-state as large as the United Kingdom, and earned $80 
million per month by the end of 2015. Mostly via illegal oil sales, 
while also relying on antiquities sales, the extortion and taxation of 
local populations, and kidnappings for ransom.
    Since the coalition military operations against ISIS in Iraq and 
Syria it has lost 90 percent of the territory it once controlled to 
include its former capital Raqqa as well as Mosul. An estimated 3-5,000 
fighters remain in the area, down significantly from the estimated 40-
60,000 fighters from over 100 countries, while it still earns roughly 
$4 million per month from oil sales and black market antiquities 
trading.
    There is potential for an ISIS resurgence in Syria and Iraq if the 
United States pulls its forces out prematurely. What the Syrian 
Democratic Forces (SDF) and the Iraqi Security Forces (ISF) would lose 
most significantly is the assistance of competent American ground and 
coalition forces and the devastating use of American air power, while 
forfeiting the political and diplomatic support that the U.S. military 
presence brings to the table.
                           virtual caliphate
    The virtual caliphate maintains the connectivity with ISIS 
affiliate organizations world-wide which indeed have expanded since the 
loss of the physical caliphate. Using the virtual caliphate ISIS 
maintains its external terrorist organization (ETO) to, at times, 
direct or support networks, cells, and individuals, but, mostly, to 
inspire others to kill and maim their own people. While it has taken 
longer than decimating the physical caliphate, the virtual caliphate 
has been severely damaged mostly because of physical destruction but 
also because of sophisticated cyber operations to reduce capacity. This 
was due to the combined efforts of the National Security Agency (NSA) 
and the Joint Special Operations Command (JSOC). The United States 
works alongside foreign partners to strengthen their counter-messaging 
strategies. Further, the U.S. Government has enlisted the assistance of 
social media companies such as Facebook, Twitter, and YouTube to 
identify potential terrorist accounts and remove violent content from 
their platforms. To date Twitter has reportedly disabled nearly 1 
million handles publishing pro-ISIS content. Despite that positive 
effort the social media companies must do more.
    Reducing the virtual caliphate begins to break the bond that ISIS 
has so successfully maintained with its world-wide affiliate 
organizations and its ETO which was also the basis for past recruiting 
successes.
                   affiliate organizations world-wide
    With the loss of the ISIS caliphate in Syria and Iraq, the network 
has shifted its resources to expand the influence and lethality of its 
affiliates in Northern Africa, the Sahel, The Sinai, Afghanistan, and 
Southeast Asia.
  <bullet> Libya--Despite losing its presence in Derna and Sirte, ISIS 
        has maintained a strong presence in Libya and remains a potent 
        regional threat having regrouped and established training 
        centers and operational headquarters in the central and 
        southern parts of the country. ISIS maintains a force of 4-
        6,000 fighters in Libya.
  <bullet> Sahel region in Africa--Willingly ISIS roams this area and 
        attacks local and out of region forces as it demonstrated in 
        the October 2017 ambush of a joint U.S./Nigerian patrol along 
        the Mali-Niger border, resulting in the deaths of 4 U.S. troops 
        and 5 Nigerian soldiers. Given the unwarranted publicity, the 
        United States admitted it had 800 U.S. troops in Niger and that 
        the U.S. military was operating a key drone base in the area.
  <bullet> Boko Haram--In northeastern Africa pledged allegiance to 
        ISIS in March 2015 and rapidly became the most infamous and 
        violent terrorist group to join the ISIS network. Boko Haram is 
        currently divided into 2 factions and continues to strike 
        government officials, troops, and civilians from northeastern 
        Africa despite a multinational Joint Task Force of 8,700 
        troops. Boko Haram is listed as the world's deadliest terror 
        organization.
  <bullet> Sinai--The ISIS Sinai branch has been active in Egypt's 
        Sinai Peninsula since 2011. Over the last few years Sinai 
        Province has frequently attacked Egyptian military and security 
        forces deployed in the Sinai. It has also conducted several 
        attacks in Cairo and bombings of Coptic churches in Alexandria 
        and Tanta.
  <bullet> Afghanistan--ISIS in Afghanistan also called ISIS Khorasan 
        Province (ISKP) operates in the east in Nangarhar province and 
        in the north in Kunar and Jowzjan provinces combined. ISIS has 
        carved out a dangerous foothold in Afghanistan which has 
        potential to expand into a bonafide safe haven. ISIS conducts 
        an increasing number of attacks in Kabul against civilian and 
        military targets.
  <bullet> Philippines--ISIS managed to overrun the city of Marawi 
        located on the southern Philippine island of Mindanao. The 
        Philippine forces encountered more than expected resistance, 
        ISIS forces aligned with other pro-ISIS brigade groups. After 5 
        months and over a thousand deaths, Philippine forces finally 
        defeated the pro-ISIS militias with U.S. assistance. ISIS is 
        planning to regroup.
                        protecting the homeland
    The best defense since 9/11 has been a good offense, U.S. and 
coalition partners deployed to fight terrorists in their breeding 
grounds overseas. U.S. law enforcement agencies have remained vigilant 
in thwarting terrorist plots against the U.S. homeland as demonstrated 
by the fact that there has not been a major terrorist attack since 9/
11. However, despite law enforcement's best efforts, preventing highly 
motivated and inspired assailants from carrying out terrorist acts 
remains a relentless challenge. The December 2015 San Bernardino 
shooting, the June 2016 Orlando nightclub attack and the October 2017 
deadly car ramming in New York are all stark reminders of the 
difficulty in containing the domestic terrorist threat. It's virtually 
impossible to monitor everyone who you would want to. With 1,000-plus 
investigations in the United States spreading across the breadth of the 
Nation and 23,000 persons of interest in the United Kingdom as reported 
by the director of MI-5, it is inevitable some people are going to get 
through. Our agencies hope to minimize and reduce those possibilities 
and turn the odds in our favor. This is the price of a free society. 
It's also an allocation of resources issue. Do we want to deplete 
everything else we are doing with Government funding and throw it all 
at this problem, when in fact more people are killed in opioid overdose 
and in automobile accidents than are killed in terrorist attacks? We 
must make tradeoffs and with people operating alone who are not talking 
to people or linked to a terrorist group, it is very difficult to find 
them.
                             looking ahead
    Despite the tactical victories over ISIS in Iraq and Syria, the 
remaining ISIS fighters and leadership should be driven out of 
southeastern Syria along the Euphrates River valley. And the Iraqi 
security forces assisted by U.S. and coalition partners must maintain 
its vigilance in Iraq to prevent a resurgence of ISIS. Key is the 
formation of a government after this recent election that enfranchises 
the Sunnis and the Kurds and does not make the mistake of previous Iraq 
governments that disenfranchised the Sunnis. Political unity is vital 
to prevent the rise of ISIS again or another radical Islamist group.
    It appears likely that ISIS will resort to more traditional 
terrorist tactics and attempt to exert control in weakly governed space 
across Africa, the Middle East, South and Southeast Asia. It will 
always be seeking sanctuary or safe haven and when they do, it must be 
destroyed as rapidly as possible.
    Europe, much more vulnerable than the United States, could be the 
next battlefront as ISIS activates cells to carry out attacks and prove 
it's still a threat to the West.
    In conclusion, there is a tendency and an understandable desire to 
declare victory over ISIS after retaking the lost territory in Iraq and 
Syria and go home both physically and psychologically; a serious 
strategic blunder. The lesson learned from the premature withdrawal 
from Iraq in 2011 before political stability was achieved is, we got 
ISIS. Similarly we refused to assist the newly-elected moderate 
government in Libya after Qaddafi was deposed in 2011 and we got 
Benghazi in 2012 and a failed state shortly thereafter. When we stay 
post-conflict to insure political stability such as in Germany, Italy, 
and Japan post-WWII, in South Korea post-Korean War and in Bosnia 
Herzegovina for almost 9 years, significant and lasting success is 
achieved.
    The United States, our allies and partners know we are in a 
generational struggle in confronting the ISIS threat where the key to 
long-term success is defeating their ideology and propaganda as well as 
addressing the conditions that help spread it, such as political and 
social injustice, lack of economic opportunity, corruption, and 
instability.
    Thank you and I look forward to your questions.

    Chairman McCaul. Thank you, General. The Chair recognizes 
Dr. Gartenstein-Ross.

STATEMENT OF DAVEED GARTENSTEIN-ROSS, SENIOR FELLOW, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Mr. Chairman, Ranking Member 
Thompson, and distinguished Members, it is an honor to be here 
to discuss this important topic at this vital time. We have 
agreement in all of the opening statements thus far that the 
territorial collapse of ISIS does not, of course, mean the end 
of the threat that the organization poses.
    What I want to focus on in this statement is the role of 
technology, because when we look at the rising threat level 
against Western States, including the United States, 
technological developments and geopolitics have been the two 
key factors over the past several years. We have seen three key 
developments that largely blindsided us.
    The first of these was just a few years after the 2011 Arab 
Spring Revolution in which we saw social media mobilization 
bring very idealistic protesters out to the streets. We then 
saw social media mobilization used for much more nefarious 
purposes, as ISIS was able to draw through both physical 
networks, but also virtual networks, a record number of foreign 
fighters to the Syria and Iraq theater.
    Just a few years after that, we saw a major iteration in 
the way terrorism occurs, something which I called the virtual 
planner model. This is terrorist groups taking advantage of the 
intersection of both social media accessibility to operatives 
throughout the world, and also the boom in end-to-end 
encryption, which allows them to talk to more people, and to do 
so in secure ways.
    In this manner, terrorist networks half a world away can 
perform all the functions that physical networks used to 
perform. Scouting for operatives, recruiting them, helping to 
select the target and timing of attacks, even providing various 
kinds of technical assistance, bomb-making assistance and the 
like. This has been a major development, which has had a 
transformative impact on terrorism.
    In recent years and months, we have also seen the wide-
spread adoption of consumer drone technology work to the 
advantage of militant organizations. We have, of course, seen 
that in Iraq and Syria. I can tell you for a fact that the 
weaponization of drones has already made its way to Africa. I 
was recently in Tunisia and got to talk to the members of the 
African Union Peacekeeping Force, who have seen Shabaab in 
Somalia pick up drone technology.
    In all of these cases, we see a clear pattern, which is 
something is widely adopted by consumers, and then it is taken 
by terrorists and adapted in a way that can serve their 
purposes. I think that we need to stay apprised of this, 
because when you look at the homeland security implications of 
the continued threat posed by ISIS, their adoption of 
technology and use of consumer-oriented technology is going to 
be absolutely critical and something we need to stay ahead of.
    Now, in terms of what we can do. One thing that we need to 
maintain at a Government level is dialog with leading tech 
firms, that is an area where over the course of the past 3 to 4 
years, especially with ISIS's exploitation of social media 
technology, there has been much more liaison between the U.S. 
Government and tech firms in such a way that they are now 
somewhat speaking the same language.
    Second, getting out ahead of technological uses that can be 
exploited by terrorists is important. This is something that we 
have had a hard time doing, in part, because often we are 
blindsided by these adoptions of technology. One thing I 
highlight, both in my written statement, and also instead of my 
recent popular press writing, is that artificial intelligence 
is likely to be an area in which terrorists are able to exploit 
the more wide-spread adoption of artificial intelligence at a 
consumer level.
    Finally, in terms of what we can do. I think that a lot 
will require international cooperation. When you see, for 
example, AI researchers arguing for international covenants to 
prevent automated weapons from being adopted wide-spread. 
Whether you agree with them or not on the issue, one of the 
reasons why they are doing this is because they believe that 
proliferation of automated weapon systems will help rogue 
states, and will help terrorist organizations.
    I think about what is needed at an international level is 
very important, as well as harnessing the potential of current 
technological development, including for such things as counter 
network warfare. For us, technology is not a panacea, it is 
simply a tool. I think that Ambassador Crocker puts his finger 
on the right question. Are we going to lead?
    It is not just a matter of our will to lead, but all the 
technological developments I put my finger on have really 
changed the way that so many spheres do business, including 
especially in the entrepreneurial space. But it has that impact 
in government and politics sphere. Within my organizations, we 
often think of violent non-state actors as the equivalent of 
start-up firms in the political organizing space.
    These organization tend to be very good organizationally at 
what we are not good at. So asking the question not just about 
our will, but also our organizational design is, in my view, 
vital. Thank you.
    [The prepared statement of Dr. Gartenstein-Ross follows:]
             Prepared Statement of Daveed Gartenstein-Ross
                              May 23, 2018
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, it is an honor to appear before you today to testify 
about the threat implications as the militant group known as the 
Islamic State (hereafter ISIS) moves into the post-caliphate phase of 
its existence.
    The collapse of ISIS's ``caliphate'' is indeed an important 
milestone for the region, and will reduce both the threat of ISIS's 
external operations (that is, terrorist plots abroad) and the 
extraordinary appeal that ISIS displayed in electrifying jihadist 
sympathizers and inspiring lone-actor attacks across the globe. When it 
controlled significant territory spanning Syria and Iraq, ISIS 
brutalized the population under its yoke, openly boasted of instituting 
sex slavery, adopted genocidal policies toward the Yazidis and other 
religious minorities, and planned large-scale terrorist attacks across 
the world. The fact that the group no longer controls its own proto-
state is a positive turn of events that is hard to understate. But 
recent geopolitical developments have provided ISIS with breathing 
room. And even if ISIS's decline were continuing apace, ISIS is not the 
whole of the jihadist movement, which remains in a relatively strong 
position. ISIS's territorial decline should be understood in the 
context of a larger movement that remains dynamic, adaptable, and 
dangerous, and that has grown significantly in strength since the 2011 
``Arab Spring'' revolutions. Further, technological advances and 
geopolitical developments have helped to enhance the global jihadist 
movement in definable ways.
    My testimony addresses five critical points that I believe can 
inform how we should understand and address the threat implications of 
jihadism after the fall of ISIS's caliphate:
    1. Recent geopolitical developments have given ISIS important 
breathing room.
    2. ISIS's ability to preserve or reestablish its ``virtual 
planner'' model of external operations will have a significant impact 
on the threat that the group will pose against the United States and 
other Western countries.
    3. The global jihadist movement's overall trajectory is one of 
growth, not of decline.
    4. Al-Qaeda has exploited the heightened counterterrorism focus on 
ISIS in recent years.
    5. Tackling jihadists' exploitation of consumer-oriented 
technological advances will be critical to mitigating the threat in the 
future.
      recent geopolitical developments have slowed isis's decline
    ISIS began to experience a precipitous territorial collapse in 
2017. When a militant group that had previously held territory 
experiences sudden decline, as ISIS did, the speed of its decline is 
often determinative of the extent to which it is able to preserve its 
most critical functions. ISIS will scramble to preserve its key 
leaders, as much of its forces as possible, its capacity for external 
operations, its monetary assets, and records necessary to allow the 
group to reestablish a viable network, all while trying to keep 
critical information away from adversaries trying to kill or capture 
its members.
    ISIS's rapid collapse continued until recent months, but the 
group's losses are now being reversed to some extent. One demonstration 
of this fact is the recent admission of Col. Ryan Dillon, the spokesman 
for the American-led coalition against ISIS, to the New York Times. 
Col. Dillon said that ``he and senior coalition commanders are now 
saying the coalition and its Syrian militia partners have reclaimed 
more than 90 percent of the territory the Islamic State captured in 
Iraq and Syria in 2014, instead of the 98 percent figure officials have 
been using for weeks.''\1\ In other words, the relevant metric 
concerning ISIS's territorial loss appears to be moving in the wrong 
direction, at least for now.
---------------------------------------------------------------------------
    \1\ See: Eric Schmitt, ``American Warplanes Shift Tactics to Target 
Last ISIS Pockets in Eastern Syria,'' The New York Times, April 24, 
2018. (https://www.nytimes.com/2018/04/24/world/middleeast/american-
warplanes-isis-syria.html)
---------------------------------------------------------------------------
    The key reason why ISIS has experienced recent gains is the major 
offensive that Tukey launched in northern Syria against the Kurdish 
People's Protection Units (YPG) earlier this year.\2\ The Turkish 
assault diverted the highly effective YPG from its advance into ISIS's 
territory, and has no doubt given ISIS more breathing room. In turn, 
this gives ISIS a better chance of preserving some of the vital 
functions enumerated above, including leadership, forces, external 
operations capabilities, and finances.
---------------------------------------------------------------------------
    \2\ For an informative snapshot of the Turkish offensive, see: 
Martin Chulov, ``Syria's New Exiles: Kurds Flee Afrin After Turkish 
Assault,'' The Guardian (London), March 18, 2018. (https://
www.theguardian.com/world/2018/mar/18/syrias-new-exiles-kurds-flee-
afrin-after-turkish-assault)
---------------------------------------------------------------------------
    The Turkish offensive into Afrin is not the only recent offensive 
against Kurdish actors that has helped militants to regroup. The Iraqi 
government's military offensive against the Kurdistan Regional 
Government (KRG) following its independence referendum in October 2017 
depleted the KRG's effectiveness in eradicating ISIS and other militant 
groups in northern Iraq. Outgunned by Baghdad, the Kurdish Peshmerga 
were quickly overpowered and were forced to withdraw from, among other 
places, the strategic Hamrin mountains in Iraq's northeast Diyala 
region. The Hamrin traditionally served as a stronghold for al-Qaeda in 
Iraq and other anti-government groups. Prior to the Baghdad-directed 
assault, KRG forces controlled the mountains, limiting their use as a 
militant safe haven. It is no coincidence that we have seen a 
significant uptick in militant activity in that area following Iraq's 
offensive: After the KRG's withdrawal, Iraqi government forces declined 
to set up a presence across the mountains, leaving a vacuum of 
authority.\3\
---------------------------------------------------------------------------
    \3\ The most significant militant group operating in this area is 
the White Banners (Al-Rayat al-Bayda), which is accurately referred to 
as ``shadowy'' in press coverage. See discussion in: Borzou Daragahi, 
``After the Black Flag of ISIS, Iraq Now Faces the White Flags,'' 
BuzzFeed, April, 1, 2018. (https://www.buzzfeed.com/borzoudaragahi/
isis-iraq-white-flags-syria-new-name?utm_term=.maLzwqZq0#.htO9ZMAM6); 
Jeff Schogol, ``A `Post-ISIS Insurgency' is Gaining Steam in Northern 
Iraq, Analysts Say,'' Task & Purpose, April 24, 2018. (https://
taskandpurpose.com/post-isis-insurgency-is-gaining-steam-in-iraq/)
---------------------------------------------------------------------------
    In addition to the recent breathing space that ISIS and other 
militant groups have gained, militants are likely to capitalize on 
festering Sunni grievances in Iraq. In the campaign to roll back ISIS 
gains in Iraq, many Sunnis (Arab or Turkmen) were forcibly displaced by 
the Iranian-backed Popular Mobilization Forces (PMF), just as a large 
number of Kurds have been displaced by Shiite Arabs since the PMF 
helped Iraq's government to suppress the KRG last year. Tens of 
thousands of young men with military training (ISIS or Peshmerga) now 
stand in limbo, and could potentially be spurred to action by a 
charismatic and well-resourced patron. The electoral success of Muqtada 
al-Sadr's Sairoon Alliance, as well as the significant influence that 
Iran wields inside Iraq, could further fuel the attractiveness of Sunni 
militancy.
    isis's ability to preserve its virtual planner model is critical
    It is extremely likely that ISIS's ability to launch complex 
attacks abroad, such as the November 2015 Paris attacks, will decline 
significantly in the short to medium term. However, in recent years we 
have seen ISIS pioneer a new model of external operations, dubbed the 
``virtual planner'' model, which combines easy accessibility to 
operatives via social media with advances in end-to-end encryption.\4\ 
While ISIS's territorial losses will significantly constrain its 
capacity to launch attacks that rely on traditional safe havens, it is 
more likely that the militant group will be able to preserve or 
reestablish its virtual planner attack model.
---------------------------------------------------------------------------
    \4\ See discussion in: Daveed Gartenstein-Ross and Madeleine 
Blackman, ``ISIL's Virtual Planners: A Critical Terrorist Innovation,'' 
War on the Rocks, January 4, 2017. (https://warontherocks.com/2017/01/
isils-virtual-planners-a-critical-terrorist-innovation/)
---------------------------------------------------------------------------
    The virtual planner model allows on-line operatives to provide the 
same offerings that were once the domain of physical networks, 
including recruitment, coordinating the target and timing of attacks, 
and even providing technical assistance on topics like bomb-making. In 
this manner, ISIS has engineered a process by which the group's 
operatives can directly guide lone attackers from thousands of miles 
away. The virtual planner model is a highly significant development, as 
it has helped transform lone attackers relying on the internet from the 
bungling wannabes of a decade ago into something much more 
dangerous.\5\ The operatives who are recruited and coached by virtual 
planners have been seamlessly incorporated into jihadist groups' global 
strategy in a way that ``lone wolves'' never were before.
---------------------------------------------------------------------------
    \5\ For a good synopsis of the ineffectiveness of DIY terrorism a 
decade ago, see: Emily Hunt, ``Virtual Incompetence,'' The Weekly 
Standard, August 17, 2006. (http://www.weeklystandard.com/virtual-
incompetence/article/13724)
---------------------------------------------------------------------------
    In many ways, ISIS's virtual planner model is an outgrowth of, and 
improvement upon, the radical preacher Anwar al-Awlaki's approach. 
Awlaki, an official and propagandist for al-Qaeda in the Arabian 
Peninsula (AQAP), became notorious for using the internet to call for 
lone-wolf attacks. He hoped that lone-wolf attackers would complement, 
rather than replace, al-Qaeda's centrally-directed plots--some of 
which, such as Umar Farouk Abdulmutallab's Christmas Day 2009 underwear 
bomb plot, Awlaki himself helped to plan.\6\ Through his public 
statements, particularly his infamous YouTube sermons, Awlaki mobilized 
scores of people, even after a U.S. airstrike took Awlaki's life in 
2011. Recent plots influenced (at least in part) by Awlaki include the 
September 2016 bombings in New York and New Jersey, the 2016 shooting 
at the Pulse nightclub in Orlando, the 2015 San Bernardino attack, and 
the 2013 Boston Marathon bombings. Yet despite his skill as an 
inspirational figure, all Awlaki could do was put out the call and hope 
someone would take up arms in response. He was a product of the age of 
mass communication and global interconnectivity, but even Awlaki's 
superb oratorical skills could not match the feelings of ``remote 
intimacy'' with people halfway across the world that can be fostered 
through social media, or the volume and two-way nature of 
communications that medium allows.\7\ As one example of the strength of 
social media-based recruitment activities, Indian intelligence 
officials believe that ISIS's South Asia virtual planner, Yusuf al-
Hindi, was in touch with over 800 Indians through Facebook and 
WhatsApp.\8\ While ISIS's various propagandists seemingly lacked the 
same kind of raw magnetism that Awlaki had for English speakers, they 
had the advantage of exploiting a medium that is simply more engrossing 
due to the constant contact it allows.
---------------------------------------------------------------------------
    \6\ See: Peter Finn, ``Al-Awlaki Directed Christmas `Underwear 
Bomber' Plot, Justice Department Memo Says,'' The Washington Post, 
February 10, 2012. (https://www.washingtonpost.com/world/national-
security/al-awlaki-directed-christmas-underwear-bomber-plot-justice-
department-memo-says/2012/02/10/gIQArDOt4Q_story.html?utm_term- 
=.805626d41421)
    \7\ See discussion in: J.M. Berger, ``The Metronome of Apocalyptic 
Time: Social Media as Carrier Wave for Millenarian Contagion,'' 
Perspectives on Terrorism, 2015. (http://www.terrorismanalysts.com/pt/
index.php/pot/article/view/444/html)
    \8\ ``Yusuf al-Hindi: The Mysterious Islamic State Recruiter in 
India Who's Got Intel Agencies Worried,'' First Post, July 19, 2016. 
(https://www.firstpost.com/world/yusuf-al-hindi-mysterious-islamic-
state-recruiter-in-india-whos-got-intel-agencies-worried-2902536.html).
---------------------------------------------------------------------------
    This continuous contact seemingly allowed a higher recruitment rate 
than the essentially one-way communication of video postings. By 
building an ``intimate'' relationship with the potential attacker, the 
virtual planner provides encouragement and validation, addressing the 
individual's doubts and hesitations. Virtual planners can replicate the 
same social pressures that exist in in-person cells. As Peter 
Weinberger of the University of Maryland's National Consortium for the 
Study of Terrorism and Responses to Terrorism put it, ``People will get 
in these chat rooms and they will feel like they have a relationship 
with someone. That's where the peer-to-peer contact is drawing them 
in.''\9\
---------------------------------------------------------------------------
    \9\ Quoted in: Stacy Meichtry and Sam Schechner, ``How Islamic 
State Weaponized the Chat App to Direct Attacks on the West,'' The Wall 
Street Journal, October 20, 2016. (https://www.wsj.com/articles/how-
islamic-state-weaponized-the-chat-app-to-direct-attacks-on-the-west-
1476955802)
---------------------------------------------------------------------------
    In some instances, virtual planners have been in contact with 
attackers until the very moment of the attack, supporting and prodding 
these individuals into action even when they grew hesitant. In a July 
2016 suicide bombing outside a concert in Ansbach, Germany, attacker 
Mohammad Daleel told the virtual planner with whom he was communicating 
that he found the security measures outside the concert daunting. The 
Long War Journal reports their ensuring conversation:

``The unnamed operative told Daleel . . . to look for an appropriate 
place to put his bomb and then try to `disappear into the crowd.' The 
jihadist egged Daleel on, saying the asylum-seeker should `break 
through police cordons,' run away and `do it.'
`` `Pray for me,' Daleel wrote at one point. `You do not know what is 
happening with me right now,' Daleel typed, in an apparent moment of 
doubt.
`` `Forget the festival and go over to the restaurant,' the handler 
responded. `Hey man, what is going on with you? Even if just two people 
were killed, I would do it. Trust in Allah and walk straight up to the 
restaurant.' ''\10\
---------------------------------------------------------------------------
    \10\ Thomas Joscelyn, ``Terror Plots in Germany, France Were 
`Remote-Controlled' by Islamic State Operatives,'' FDD's Long War 
Journal, September 24, 2016. (https://www.longwarjournal.org/archives/
2016/09/terror-plots-in-germany-france-were-remote-controlled-by-
islamic-state-operatives.php)

    And that is what Daleel did. He walked into a wine bar and blew 
himself up, injuring 15 people. Had Daleel not been communicating with 
a virtual planner up until the moment of attack, his cold feet very 
likely would have prevented him from completing his terrorist mission.
    In the past, virtual planners were integrated into ISIS's 
geographical command structure. ISIS's virtual planners were assigned 
areas of responsibility according to their nationality and linguistic 
skills, and tasked with actively recruiting and handling attackers from 
those areas. The decision to assign virtual planners to geographic 
areas with which they were familiar allowed them to reach back to 
contacts they still had in the domestic militant scene.
    So will ISIS's virtual planner model survive into its post-
caliphate phase? On the one hand, the main equipment that virtual 
planners require is an internet connection and good encryption, which 
militates in favor of the model surviving. On the other hand, there are 
at least a couple of countervailing considerations that will create 
complications for ISIS's efforts to make this model continue with the 
same tempo and the same deadly results. First, it is no coincidence 
that ISIS's most prominent virtual planners were based in its caliphate 
territory. While an internet connection and encryption are 
theoretically all that a virtual planner requires, the fact that 
virtual planners in ISIS's territory were not forced to constantly run 
from authorities helped them to focus on their external operations 
tasks. Further, the virtual planners were in close proximity to all the 
expertise they needed to help their operatives do their jobs, if those 
operatives needed technical assistance. The geographic dispersion of 
ISIS's virtual planners may diminish the model's effectiveness.
    Second, the available evidence suggests that ISIS's model is losing 
a considerable amount, though not all, of its luster. ISIS recruitment 
and plots are in decline, a drop that is particularly noticeable in the 
United States. This fact is consistent with predictions I made in 
previous testimony before the U.S. Senate, when I described ISIS's 
appeal as a ``winner's message.''\11\ As ISIS's ability to portray 
itself as a winning organization declines, so too does its ability to 
recruit and inspire attacks. Thus, ISIS's plummeting fortunes may also 
hamper the virtual planner model. However, it is worth noting that new 
high-profile attacks or a major territorial advance--such as the 
advance that overran the city of Marawi in the Philippines for several 
months last year--could breathe new life into virtual planner efforts.
---------------------------------------------------------------------------
    \11\ Daveed Gartenstein-Ross, ``Jihad 2.0: Social Media in the Next 
Evolution of Terrorist Recruitment,'' Testimony before the Senate 
Committee on Homeland Security & Governmental Affairs, May 7, 2015. 
(http://www.defenddemocracy.org/content/uploads/documents/
Gartenstein_Ross_HSGAC_Testimony_Jihad2.0.pdf)
---------------------------------------------------------------------------
    The continuation of the virtual planner model, including the tempo, 
success, and lethality of virtual planner attacks, will be a leading 
indicator of the continuing external operations threat that ISIS poses 
in its post-caliphate manifestation.
                        global jihadism's growth
    As noted at the beginning of this testimony, the global jihadist 
movement's overall trajectory is one of growth, not of decline. One 
factor that for years has been highly relevant to analysts' evaluation 
of the threats posed by jihadist groups has been the presence of 
ungoverned spaces that they can use as safe havens. Such spaces allow 
jihadist organizations to establish key organizational functions, train 
recruits, communicate, and plan terrorist plots or insurgent military 
operations relatively unimpeded. Ungoverned spaces that jihadist groups 
can exploit continue to play a larger role in the geopolitical picture 
than they did at the time of the Arab Spring revolutions, and this 
remains true even after ISIS's territorial collapse.
    While ISIS is the group that observers associate most closely with 
the holding of territory, several different jihadist groups now hold or 
contest territory, even in Syria. In Libya, the government could never 
reestablish its writ after the fall of Muammar Qaddafi's regime in 
2011. Jihadists have predictably exploited this situation. ISIS 
succeeded in capturing and holding the city of Sirte for months, while 
other jihadist groups have experienced even more sustained success. The 
Abu Salim Martyrs Brigade (ASMB) and the Mujahedin Shura Council (MSC), 
an umbrella organization in which ASMB plays a leading role, have been 
major players in the eastern coastal city of Derna, frequently 
exercising control over it. Al-Qaeda in the Islamic Maghreb officially 
endorsed the MSC in July 2015.\12\ Jihadists also have significant 
operating space in Yemen despite the United States escalating its 
kinetic campaign against al-Qaeda in the Arabian Peninsula. As the New 
York Times recently reported, ``the threat of a terrorist attack--with 
the most commonly feared target a commercial airliner--emanating from 
the chaotic, ungoverned spaces of Yemen remains high on the 
government's list of terrorism concerns.''\13\
---------------------------------------------------------------------------
    \12\ See discussion in: Thomas Joscelyn, ``Al Qaeda in the Islamic 
Maghreb Backs Jihadists Fighting Islamic State in Derna, Libya,'' FDD's 
Long War Journal, July 9, 2015. (https://www.longwarjournal.org/
archives/2015/07/al-qaeda-in-the-islamic-maghreb-backs-jihadists-
fighting-islamic-state-in-derna-libya.php)
    \13\ Eric Schmitt and Saeed al-Batati, ``The U.S. Has Pummeled Al 
Qaeda in Yemen. But the Threat is Barely Dented,'' The New York Times, 
December 30, 2017. (https://www.nytimes.com/2017/12/30/world/
middleeast/yemen-al-qaeda-us-terrorism.html)
---------------------------------------------------------------------------
    Both Mali and Somalia face burgeoning jihadist-led insurgencies. In 
Somalia, African Union forces have already begun to reduce their 
numbers, bolstering the jihadist group al-Shabaab's hopes that it could 
again become the dominant military force in southern Somalia. In the 
place where the ``global war on terror'' began--Afghanistan/Pakistan--
not only has the Taliban been gaining ground, but available evidence, 
including the discovery of a 30-square-mile al-Qaeda training facility 
near Kandahar, suggests that the Taliban has not severed its ties to 
al-Qaeda.\14\ ISIS has also established a foothold in Afghanistan, 
where it has been responsible for a string of mass-casualty terrorist 
attacks.\15\ And although it does not fit the mold of other safe 
havens, which are typically made possible by ungoverned spaces, Turkey 
merits a mention. In recent years, U.S. officials have openly expressed 
alarm about Turkey's growing willingness to shelter violent jihadists, 
including those connected to al-Qaeda.\16\
---------------------------------------------------------------------------
    \14\ See: Dan Lamothe, `` `Probably the Largest' al-Qaeda Training 
Camp Ever Destroyed in Afghanistan,'' The Washington Post, October 30, 
2015. (https://www.washingtonpost.com/news/checkpoint/wp/2015/10/30/
probably-the-largest-al-qaeda-training-camp-ever-destroyed-in-
afghanistan/?utm_term=.afd665dd3af8)
    \15\ See discussion in, for example: Krishnadev Calamur, ``ISIS in 
Afghanistan is Like a Balloon that Won't Pop,'' The Atlantic, December 
28, 2017. (https://www.theatlantic.com/international/archive/2017/12/
afghanistan-isis/549311/)
    \16\ Joby Warrick, ``Double Game? Even as it Battles ISIS, Turkey 
Gives Other Extremists Shelter,'' The Washington Post, July 10, 2016. 
(https://www.washingtonpost.com/world/national-security/double-game-
even-as-it-battles-isis-turkey-gives-other-extremists-shelter/2016/07/
10/8d6ce040-4053-11e6-a66f-
aa6c1883b6b1_story.html?utm_term=.93214ed047f5).
---------------------------------------------------------------------------
    In addition to ungoverned spaces and safe havens, jihadism has 
experienced growth in areas where it had previously been marginalized. 
Prior to the outbreak of the Arab Spring, analysts held that Egypt's 
Hosni Mubarak had defeated the country's militant Islamic groups after 
they overplayed their hand in the 1997 Luxor massacre.\17\ Today, 
jihadism has powerfully reemerged, and there are more frequent attacks 
than ever before by militant groups like ISIS's Wilayat Sinai, 
including the devastating November 2017 attack on a Sufi mosque in 
northern Sinai that claimed over 300 lives.\18\ In countries like 
Tunisia and Jordan, jihadism has moved from an afterthought to a first-
order strategic concern. Meanwhile, there is a visible jihadist 
resurgence from South to Southeast Asia, most dramatically underscored 
last year by the months-long capture of the Philippine city of Marawi 
by a regional ISIS affiliate.
---------------------------------------------------------------------------
    \17\ See discussion in: Hassanein Tawfik Ibrahim, ``The Rise and 
Fall of Militant Islamic Groups in Egypt,'' Violent Non-State Actors in 
World Politics, Ed. Klejda Mulaj (New York: Columbia University Press, 
2010).
    \18\ Declan Walsh and Nour Youssef, ``Militants Kill 305 at Sufi 
Mosque in Egypt's Deadliest Terrorist Attack,'' The New York Times, 
November 24, 2017.
---------------------------------------------------------------------------
    As jihadist groups are growing stronger, states face a growing 
number of challenges. Populations are burgeoning while ecological 
challenges and resource constraints are growing increasingly 
burdensome. Some ecological challenges amplify one another: Climate 
change makes food scarcity and water shortages more acute, which in 
turn can contribute to more environmental degradation, such as 
deforestation, as hungry populations scour for sustenance. Many 
economies cannot keep up with the expectations of their growing 
populations, while multiple states are saddled by unsustainable debt, 
leaving them with fewer resources to navigate the extraordinary 
challenges they confront.
    The overall direction of the global jihadist movement is thus one 
of growth, while the states that the movement seeks to topple face 
growing challenges.
              al-qaeda has exploited the ct focus on isis
    For years, while international efforts focused on ISIS, al-Qaeda 
flew relatively below the radar, building its support base in countries 
like Syria and Yemen, establishing safe havens, destabilizing enemy 
states, and preparing for a post-ISIS future.\19\
---------------------------------------------------------------------------
    \19\ The arguments in this section are adapted from a longer piece 
that I co-authored. For a more in-depth explanation of how al-Qaeda has 
been able to exploit ISIS's rise, see: Daveed Gartenstein-Ross and 
Nathaniel Barr, ``How al-Qaeda Survived the Islamic State Challenge,'' 
Current Trends in Islamist Ideology, March 1, 2017. (https://
www.hudson.org/research/12788-how-al-qaeda-survived-the-islamic-state-
challenge)
---------------------------------------------------------------------------
    Even before ISIS's rise, al-Qaeda had adopted a strategy for growth 
in the MENA region that entailed minimizing the amount of attention the 
group attracted. Al-Qaeda's strategists saw the 2011 Arab Spring 
revolutions as ``a great historical event,'' to quote bin Laden's only 
public statement on the uprisings.\20\ Al-Qaeda's strategists assessed 
the uprisings as significant in part because they were a ``historical 
opportunity'' for the salafi jihadist movement, as senior al-Qaeda 
official Atiyah Abd al-Rahman put it in a February 2011 statement.\21\ 
Al-Qaeda strategists calculated that the political turmoil and 
instability of the post-revolutionary environment would play to the 
group's strengths. Further, dozens to hundreds of veteran jihadists 
were released from prison during and after the region's revolutions, 
giving al-Qaeda an immediate infusion of experienced manpower.\22\
---------------------------------------------------------------------------
    \20\ Osama bin Ladin, ``Ila Ummati al-Muslima,'' Al-Sahab (Al-
Qaeda), May 19, 2011.
    \21\ Atiyah Abd al-Rahman, ``The People's Revolt . . . The Fall of 
Corrupt Arab Regimes . . . The Demolition of the Idol of Stability . . 
. and the New Beginning,'' distributed by the Global Islamic Media 
Front, February 16, 2011.
    \22\ See contemporaneous discussion in: Daveed Gartenstein-Ross and 
Aaron Zelin, ``How the Arab Spring's Prisoner Releases Have Helped the 
Jihadi Cause,'' The Atlantic, October 11, 2012. (http://
www.theatlantic.com/international/archive/2012/10/how-the-arab-springs-
prisoner-releases-have-helped-the-jihadi-cause/263469/); Hani al-
Siba'i, in particular, chronicled these prisoner releases as they were 
occurring in the midst of the regional upheaval. See: Hani al-Siba'i, 
``The Release of Prisoners After Nearly Twenty Years of Injustice,'' 
Ansar Dawlat al-Iraq al-Islamiyah, February 23, 2011; Hani al-Siba'i, 
``The Release of a New Batch After Long Years Behind Bars,'' Al-
Jahafal, February 27, 2011; Hani al-Siba'i, ``Urgent: The Release of a 
New Batch of Those Charged with Military Verdicts,'' Ansar Dawlat al-
Iraq al-Islamiyah, March 4, 2011; Al-Maqrizi Center for Historical 
Studies, ``Names of the Released Detainees from the al-Aqrab, al-
Istiqbal, al-Wadi, and Burj al-Arab Prisons,'' Shumukh al-Islam 
Network, March 18, 2011.
---------------------------------------------------------------------------
    Al-Qaeda also concluded that political dynamics in post-
revolutionary countries had created a fertile environment for the group 
to expand its support base, and to introduce new populations to its 
theology and ideology. Post-revolutionary governments sought to 
distinguish themselves from their authoritarian predecessors by lifting 
restrictions on religious expression. Al-Qaeda saw this as an 
opportunity, as it allowed the group to publicly disseminate its salafi 
jihadist views to the general public in post-revolutionary states 
without fear of an immediate crackdown. As Hamid bin Abdallah al-Ali, a 
Kuwait-based jihadist commentator, remarked: ``The Islamic project 
[will be] the greatest beneficiary from the environment of 
freedom.''\23\ Al-Qaeda strategists directed supporters in Tunisia, 
Egypt, and other post-revolutionary countries to engage in dawa 
(evangelism), and to ``spring into action and initiate or increase 
their preaching, education, reformation and revitalization in light of 
the freedom and opportunities now available in this post revolution 
era.''\24\
---------------------------------------------------------------------------
    \23\ Hamid bin Abdallah al-Ali, ``The Joy Lies in the Harvest of 
the Two Revolutions,'' posted on al-Ali's official website, February 
15, 2011.
    \24\ Atiyah Abd al-Rahman, ``The People's Revolt.''
---------------------------------------------------------------------------
    This is where the group's emphasis on minimizing the attention that 
it attracted came into play. Al-Qaeda calculated that use of its own 
moniker could alienate potential supporters and invite negative 
attention from Western counterterrorism actors. Al-Qaeda thus 
established or supported groups with ambiguous names, including Ansar 
al-Sharia in Tunisia and Libya, to mask its presence and spearhead its 
public campaign in new places. Thus, the group's political operatives 
focused on dawa: Preaching, providing social services, and gaining the 
support of local populations. These political efforts were designed in 
part to lay the groundwork for an eventual military confrontation with 
the state. Al-Qaeda's emphasis on dawa and community outreach allowed 
it to amass a considerable following in Libya and Tunisia. A 2012 
conference in Tunisia hosted by Ansar al-Sharia, for example, drew 
between 3,000 and 10,000 participants.\25\ In this way, al-Qaeda came 
to maintain a presence in almost every country that experienced 
significant turmoil during the Arab uprisings.
---------------------------------------------------------------------------
    \25\ Daveed Gartenstein-Ross and Bridget Moreng, ``An Escalation in 
Tunisia: How the State Went to War with Ansar al-Sharia,'' War on the 
Rocks, February 24, 2014. (http://warontherocks.com/2014/02/an-
escalation-in-tunisia-how-the-state-went-to-war-with-ansar-al-sharia/)
---------------------------------------------------------------------------
    After this initial stage of growth, ISIS's emergence as a jihadist 
competitor presented al-Qaeda with a challenge unlike any other the 
group had encountered. Among other challenges, ISIS's rapid ascent 
threatened to disrupt al-Qaeda's deliberate growth model, and oust al-
Qaeda from its position of supremacy over the jihadist movement. ISIS's 
strategy was diametrically opposed to al-Qaeda's. While al-Qaeda often 
grew through clandestine means, ISIS stole the spotlight at every 
opportunity. ISIS built a robust propaganda apparatus suited for the 
digital age, pumping out a constant stream of videos, photos, and 
statements advertising its victories that were widely disseminated by 
its social media legions. With this brash approach, ISIS openly wooed 
al-Qaeda's affiliates, attempting to absorb its parent's global 
network.
    It was widely assumed at the time that the only way al-Qaeda could 
remain influential was by replicating ISIS's conspicuous model--for 
example, by carrying out spectacular terrorist attacks to reassert the 
group's relevance.\26\ But rather than trying to replicate ISIS's 
model, al-Qaeda took the opposite approach. Al-Qaeda reduced its public 
profile, downplayed its successes rather than publicizing them, and 
embedded further within local populations. In this way, al-Qaeda 
presented itself to the world as a more palatable alternative to its 
bloodthirsty rival.
---------------------------------------------------------------------------
    \26\ See: Clint Watts, ``Al Qaeda Loses Touch,'' Foreign Affairs, 
February 4, 2015. (https://www.foreignaffairs.com/articles/middle-east/
2015-02-04/al-qaeda-loses-touch)
---------------------------------------------------------------------------
    The interactions al-Qaeda leaders had with the media provide a 
valuable lens through which to understand the group's strategy for 
benefiting from ISIS's rise. In a discussion with an Al-Jazeera 
documentarian in early 2015, Abu Sulayman al-Muhajir, a high-ranking 
Nusra Front religious official who hails from Australia, accused ISIS 
of ``delegitimizing'' other Sunni Muslim groups.\27\ Muhajir contrasted 
ISIS with the al-Qaeda-affiliated Nusra Front, which he portrayed as 
trying to ``restore the right of the Muslim people to choose their 
leaders'' in Syria. Further, in June 2015, the Guardian published an 
extended interview with Abu Muhammad al-Maqdisi and Abu Qatada, two of 
al-Qaeda's most senior religious figures, that revealed another 
remarkable aspect of al-Qaeda's strategy. Rather than trying to 
convince the audience of al-Qaeda's strength or continued relevance, 
they instead concentrated on fueling the illusion that ISIS had already 
destroyed al-Qaeda. Maqdisi claimed that al-Qaeda's organizational 
structure had ``collapsed,'' while Qatada alleged that al-Qaeda emir 
Ayman al-Zawahiri had become ``isolated.''\28\
---------------------------------------------------------------------------
    \27\ The Al-Jazeera documentary featuring al-Muhajir can be found 
at: https://www.youtube.com/watch?v=OD_A3CHzvjQ.
    \28\ Shiv Malik, Mustafa Khalili, Spencer Ackerman, and Ali Younis, 
``How Isis Crippled Al-Qaida,'' The Guardian (UK), June 10, 2015. 
(http://www.theguardian.com/world/2015/jun/10/how-isis-crippled-al-
qaida)
---------------------------------------------------------------------------
    Consistent with these media themes, when al-Qaeda in the Arabian 
Peninsula (AQAP) seized control of the Yemeni port city of Mukalla, the 
group appointed a local council, known as the Hadhrami Domestic 
Council, to govern the city. Initially AQAP adopted a gradualist, 
rather lenient approach to the implementation of Sharia law (though it 
eventually began cracking down more heavily on Sharia violations).\29\ 
In this way, AQAP tried to win over local Yemenis.
---------------------------------------------------------------------------
    \29\ Ayesha Amr, ``How al Qaeda Rules in Yemen,'' Foreign Affairs, 
October 28, 2015. (https://www.foreignaffairs.com/articles/yemen/2015-
10-28/how-al-qaeda-rules-yemen)
---------------------------------------------------------------------------
    Ultimately, al-Qaeda was able to make some gains based on its 
response to ISIS's rise. While ISIS horrified the world and alienated 
Sunni Muslims with its excessive violence and brutality, al-Qaeda 
appealed to local populations and other armed factions by casting 
itself as a less extreme, more tolerable, and more effective 
alternative to ISIS. At the same time, al-Qaeda avoided advertising its 
victories, and resisted the temptation to engage in a bloody battle for 
supremacy with ISIS.
  tackling jihadists' exploitation of consumer-oriented technological 
                                advances
    Turning from the present threat to what we may face in the future, 
anticipating and mitigating jihadists' ability to leverage 
technological advances is critical. Technology has historically had an 
ambiguous impact on sub-state violence. On the one hand, states can 
leverage new advances, including for surveillance purposes and 
gathering information from local populations.\30\ On the other hand, 
militant groups can capitalize on these same platforms. But many key 
recent advances appear to, on the whole, favor jihadists. This is 
likely because the world has witnessed breakthroughs across so many 
spheres--including social media, encrypted end-to-end communication, 
and consumer drone technology--that exploiting new advances has 
seemingly proven easier for those who would use these technologies for 
the more straightforward task of destruction than for those who want to 
use them to protect.
---------------------------------------------------------------------------
    \30\ One of the most important studies on this issue, by political 
scientists Jacob Shapiro and Nils Weidmann, used micro-level data from 
Iraq to compare trends in cellphone network penetration with insurgent 
violence. The trends in declining violence that Shapiro and Weidmann 
found suggested ``that cellphone coverage reduces insurgent violence 
largely because it enhances voluntary information flow from 
noncombatants to counterinsurgents by reducing the risks of 
informing.'' Jacob N. Shapiro and Nils B. Weidmann, ``Is the Phone 
Mightier Than the Sword?: Cellphones and Insurgent Violence in Iraq,'' 
International Organization, March 2015, page 271.
---------------------------------------------------------------------------
    An early post-Arab Spring indication of jihadists' ability to 
leverage technological advances was the manner in which these groups 
drove a record number of foreign fighters to the Syria-Iraq theater. 
ISIS, in particular, combined a deft exploitation of social media's 
potential with breakthroughs in do-it-yourself video production 
techniques to craft slick and effective propaganda.\31\ Suspensions of 
pro-ISIS accounts by service providers later reduced, but did not 
eliminate, the returns that ISIS could expect from social media.\32\ As 
I explained earlier in this testimony, ISIS's exploitation of social 
media would ultimately lend itself to the highly effective virtual 
planner model.
---------------------------------------------------------------------------
    \31\ See discussion in: J.M. Berger and Jonathon Morgan, The ISIS 
Twitter Census: Defining and Describing the Population of ISIS 
Supporters on Twitter (Washington, DC: The Brookings Institution, 
2015).
    \32\ J.M. Berger and Heather Perez, The Islamic State's Diminishing 
Returns on Twitter: How Suspensions Are Limiting the Social Networks of 
English-Speaking ISIS Supporters (Washington, DC: George Washington 
University, 2016). Since the publication of this study, it has become 
even more difficult for ISIS and some other jihadist groups to exploit 
mainstream social media platforms, but their migration to alternative 
platforms has escalated.
---------------------------------------------------------------------------
    There are also technological advances that jihadist groups have not 
yet employed in Western countries, but that they have already begun 
using in Iraq and Syria. In January 2017, researchers from West Point's 
Combating Terrorism Center and Harvard University's Belfer Center 
published an article examining documents that the Iraqi military had 
captured that shed light on ISIS's program for developing and enhancing 
its unmanned aerial vehicle (UAV) capabilities.\33\ They found that 
ISIS had ``a formal, institutionalized, and resourced drone unit as 
early as 2015,'' and that the group already planned to use UAVs in an 
offensive capacity. And ISIS did indeed use UAVs for military purposes. 
BuzzFeed's Mike Giglio did some valuable embedded reporting from Iraq 
during the campaign to push ISIS from its territorial stronghold. In a 
report published in June 2017, he graphically described ISIS's use of 
UAVs against Iraqi Counter-Terrorism Force (ICTF) fighters with whom he 
was embedded:
---------------------------------------------------------------------------
    \33\ Don Rassler, Muhammad al-`Ubaydi, and Vera Mironovo, ``The 
Islamic State's Drone Documents: Management, Acquisitions, and DIY 
Tradecraft,'' CTC Sentinel, January 31, 2017. (https://ctc.usma.edu/
posts/ctc-perspectives-the-islamic-states-drone-documents-management-
acquisitions-and-diy-tradecraft)

``ISIS drones swarm overhead as the battalion's convoy pushes into the 
outskirts of western Mosul the next morning. One after another they 
drop grenades, wreaking havoc as soldiers fire their weapons wildly 
into the sky. From one of the Humvees, I watch as the battalion's 
portly cook makes his lunch rounds in an armored truck, driving up and 
down the convoy to deliver Styrofoam boxes of food. The drones track 
him, dropping grenades as soldiers gather to collect the boxes. They 
are remotely piloted by militants who weave in and out of civilian 
neighborhoods on motorbikes to take cover from airstrikes. ISIS also 
uses the video feeds on the drones to coordinate mortars and car bombs. 
On the front lines, its fighters are standing their ground, and 
soldiers at the head of the convoy can hear them shouting, `Allahu 
Akbar.' ''\34\
---------------------------------------------------------------------------
    \34\ Mike Giglio, ``Inside the Fight for Mosul,'' BuzzFeed, June 3, 
2017. (https://www.buzzfeed.com/mikegiglio/on-the-front-lines-of-the-
fight-with-isis?utm_term=.derRJnBnX#.- gy94lZxZ2)
---------------------------------------------------------------------------
    In January of this year, Russian forces in Syria destroyed a swarm 
of 13 improvised UAVs as they approached the Khmeimim air base and 
Tartus naval facility to carry out an attack. Though no Russian forces 
were killed, this fact should not cause undue complacency: As militant 
groups innovate, their early efforts often seem to be failures, but 
instead are sometimes better understood as steps in the learning 
process. Moreover, the Russian investigation of the UAVs revealed their 
impressive range. The UAVs were ``launched from a site more than 50 
kilometres (31 miles) distant from their targets,'' and had a 62-mile 
attacking range.\35\
---------------------------------------------------------------------------
    \35\ Peter Dockrill, ``First-Ever Drone Swarm Attack Has Struck 
Russian Military Bases, Sources Claim,'' Science Alert, January 11, 
2018. (http://www.sciencealert.com/swarm-home-made-drones-strike-
military-base-first-attack-kind-russia-uavs)
---------------------------------------------------------------------------
    The militant uses I have outlined of social media, encryption, and 
drones illustrate a key pattern: As a consumer technology becomes 
widely available, terrorists will look for ways to adapt it. Looking to 
the future, artificial intelligence (AI) will almost certainly end up 
fitting into this pattern. Like drones, AI will become more widely 
available in commercial markets at reduced costs, and individuals will 
be able to modify and repurpose it.\36\ AI already enjoys diverse 
applications, from products like Apple's Siri, to voice-to-text, to 
Facebook's counter-extremism detection systems.\37\
---------------------------------------------------------------------------
    \36\ Stuart Russell, Daniel Dewey, and Max Tegmark, ``Research 
Priorities for Robust and Beneficial Artificial Intelligence,'' AI 
Magazine, Winter 2015. (https://futureoflife.org/data/documents/
research_priorities.pdf?x70892)
    \37\ ``Transcript of Mark Zuckerberg's Senate Hearing,'' The 
Washington Post, April 10, 2018. (https://www.washingtonpost.com/news/
the-switch/wp/2018/04/10/transcript-of-mark-zuckerbergs-senate-hearing/
?utm_term=.d7f4a1d66685&noredirect=on)
---------------------------------------------------------------------------
    So how might terrorists use AI? Perhaps they will start with 
social-network mapping. ISIS's early battlefield victories were 
enabled, in part, by ex-Baathist intelligence operatives who mapped a 
city's key players and power brokers, monitored their pattern of life, 
and then helped ISIS to arrest or kill them. Similarly, when North 
African ISIS operatives attacked the Tunisian town of Ben Gardane in 
March 2016, the available evidence--including the efficient way they 
killed key security officials--suggested that the militants had 
similarly worked to learn the human terrain in advance.\38\ Will social 
networks built using AI capabilities reduce the intelligence burden on 
militant groups and make it easier for them to conquer towns and 
cities? What of the next generation of terror drones? Will they use AI-
enabled swarming to become more powerful and deadlier? Will terrorists 
use self-driving vehicles for their next car bombs and ramming attacks?
---------------------------------------------------------------------------
    \38\ Farah Samti and Declan Walsh, ``Tunisian Clash Spreads Fear 
that Libyan War is Spilling Over,'' The New York Times, March 7, 2016. 
(https://www.nytimes.com/2016/03/08/world/africa/attack-tunisia-libya-
border.html)
---------------------------------------------------------------------------
    How about assassinations? Max Tegmark's book Life 3.0 notes the 
concern of UC Berkeley computer scientist Stuart Russell, who worries 
that the biggest winners from an AI arms race would be ``small rogue 
states and non-state actors such as terrorists'' who can access these 
weapons through the black market.\39\ Tegmark writes that after they 
are ``mass-produced, small AI-powered killer drones are likely to cost 
little more than a smartphone.'' Would-be assassins could simply 
``upload their target's photo and address into the killer drone: it can 
then fly to the destination, identify and eliminate the person, and 
self-destruct to ensure that nobody knows who was responsible.''
---------------------------------------------------------------------------
    \39\ Max Tegmark, Life 3.0: Being Human in the Age of Artificial 
Intelligence, Kindle ed. (New York: Knopf, 2017), loc. 2142 of 6579.
---------------------------------------------------------------------------
    Thinking beyond trigger-pulling, artificial intelligence could 
boost a wide range of violent non-state actors' criminal activities, 
including extortion and kidnapping, through the automation of social 
engineering attacks.\40\ The militant recruiters of the near-future may 
boost their on-line radicalization efforts with chatbots, which played 
a ``small but strategic role'' in shaping the Brexit vote.\41\
---------------------------------------------------------------------------
    \40\ John Markoff, ``As Artificial Intelligence Evolves, So Does 
Its Criminal Potential,'' The New York Times, October 23, 2016. 
(https://www.nytimes.com/2016/10/24/technology/artificial-intelligence-
evolves-with-its-criminal-potential.html)
    \41\ Ibid.
---------------------------------------------------------------------------
    The 9/11 Commission's report famously devoted an entire section to 
discussing how the 9/11 attacks' success in part represented a failure 
in imagination by authorities.\42\ A failure in imagination as AI, and 
emergent technologies, become cheaper and more widely available could 
potentially be even costlier.
---------------------------------------------------------------------------
    \42\  National Commission on Terrorist Attacks upon the United 
States, The 9/11 Commission Report (2004), pages 339-48.
---------------------------------------------------------------------------
                               conclusion
    As I have explained, ISIS's territorial decline does in fact make 
us safer. Yet despite ISIS's decline, the global jihadist movement is 
not receding, but rather growing, while the states that the movement 
seeks to topple experience mounting challenges. As I have outlined, the 
continuity of ISIS's virtual planner model will be a leading-edge 
indicator of the threat that the organization poses in the short to 
medium term to the American homeland and other Western states. 
Meanwhile, al-Qaeda remains robust, and managed to in many ways turn 
ISIS's meteoric ascent into a strategic opportunity.
    But as challenging as the current environment is, the rapid 
improvement and diffusion of a range of consumer technologies will 
likely allow various terrorist groups to pose a greater threat in the 
future. That is why I closed this testimony by emphasizing how these 
groups will attempt to exploit emerging technologies. Although 
jihadists currently seem to be getting more out of new technologies 
than do states, the advantages bestowed by new technologies can be 
understood as a pendulum, and states may be able to gain the upper hand 
in the future. In the interim, we should brace ourselves to deal with 
greater terrorist challenges related to these groups' adoption of new 
technologies.
    Thank you again for inviting me to testify today. I look forward to 
answering your questions.

    Chairman McCaul. Thank you, Doctor. I would like to 
mention, this committee will be--I will be introducing an 
unmanned aerial system bill that I hope to mark up out of this 
committee, and thank you for mentioning technology.
    Dr. Geltzer is recognized.

  STATEMENT OF JOSHUA A. GELTZER, FORMER SENIOR DIRECTOR FOR 
          COUNTERTERRORISM, NATIONAL SECURITY COUNCIL

    Mr. Geltzer. Chairman McCaul, Ranking Member Thompson, 
distinguished Members, thank you for the opportunity to appear 
before this committee. It is an honor to do so, especially 
alongside such distinguished witnesses. ISIS's so-called 
caliphate in Iraq and Syria is shriveling, but it is not gone. 
The threat posed by ISIS persists and is evolving into new 
forms as ISIS adapts to the loss of its core territorial safe 
haven.
    I want to focus for now on three particular causes for 
concern about the threat posed by ISIS today. Its continuing 
hold on territory; its persistent foothold on the internet to 
recruit and radicalize followers; and its potential turn to 
novel forms of cyberterrorism.
    Regrettably, elements of the Trump administration's 
approach to all three aspects of today's ISIS threat appear to 
be aggravating that threat rather than minimizing it.
    The encouraging fact that we are even considering what 
threat ISIS will pose post-caliphate is a testament to both the 
Obama and Trump administration's relentless execution of the 
counter-ISIS campaign in Iraq and Syria. But the last mile of 
defeating a terrorist group can be the hardest one. That is a 
lesson, as others have acknowledged already, that the United 
States learned all too well from the remnants of ISIS's 
predecessor, al-Qaeda in Iraq.
    Today, thousands of ISIS fighters appear to be enjoying a 
worrisome opportunity to regroup, partly because the United 
States has been unable to keep in the fight against ISIS our 
key counterterrorism partner on the ground, the Syrian Kurds. 
That setback reflects the Trump administration's inability to 
manage a delicate diplomatic balance between the Kurds and the 
Turkish government. So long as the Kurds remain occupied with 
defending themselves against Turkey, rather than pursuing ISIS, 
the group is likely to retain territorial safe haven from which 
to plot against us, and will continue to lay claim to a 
purported caliphate, the rallying cry for ISIS's continued 
recruitment efforts via the internet.
    That points toward the second aspect of ISIS's persistent 
threat: The group's use of social media, file upload sites, and 
other modern communications platforms to radicalize and 
mobilize followers world-wide. ISIS's on-line messages has 
multiple themes, and if battlefield losses force the group to 
shift away from messages emphasizing the holding of territory, 
the group can pivot toward its claim to victimhood.
    Unfortunately, ISIS's internet-enabled message has 
resonated even here in the United States with individuals such 
as Omar Mateen in Orlando, and Sayfullo Saipov in New York. 
With territorial holdings dwindling, ISIS's virtual foothold 
may increase in importance to the group. That is particularly 
concerning in light of aggravating factors for radicalization 
of the Trump administration's own making.
    Donald Trump, as a Presidential candidate and now as 
President, has spoken about Islam and Muslims in ways that 
validate ISIS's attempt to portray the United States as waging 
war on a religion and its people. Moreover, President Trump has 
pursued policies that further alienate key communities whose 
cooperation is vital to identifying those who might be 
vulnerable to ISIS's appeal, and to intervening before such 
individuals turn to violence.
    Those policies include imposing a travel ban that bears 
little relation to any real threats, but offends key 
communities and foreign partners alike. Those policies also 
include withdrawing previously awarded grants to organizations 
dedicated to addressing white supremacists' brand of violent 
extremism, giving the distinct impression that the Trump 
administration is interested in countering terrorism only when 
it is carried out by groups purporting to act in the name of 
Islam.
    Thus far, radicalization has been ISIS's primary use of the 
internet. But that may change as ISIS loses physical territory 
and looks to new forms of cyberterrorism. Such efforts would 
build on earlier ISIS cyber activity, such as the fast and 
public release of personally identifiable information about 
U.S. service members. In the years since, malicious cyber 
activity has dramatically increased with powerful hacking tools 
more readily available to non-state actors such as ISIS. Here, 
too, there is cause for concern that the Trump administration 
is not appropriately tackling the challenge.
    The top position overseeing cyber policy at the White House 
is vacant, and the next most senior cyber position was recently 
eliminated. If ISIS turns to new types of cyber operations to 
regain momentum and inflict harm, this lack of leadership to 
provide strategic guidance and interagency coordination may 
prove a serious vulnerability.
    The crumbling of ISIS's caliphate in Iraq and Syria is a 
major positive development for U.S. National security, but it 
is not the end of the threat posed by ISIS. With some physical 
territories still under its control, a virtual foothold on the 
internet still in place, and the potential to turn to novel 
forms of cyberterrorism, ISIS represents a continuing danger to 
Americans at home and abroad. All of this would be challenging 
enough, but the challenge is compounded by aggravating factors 
of the Trump administration's own making.
    I am grateful for the opportunity to be here, and I look 
forward to the committee's questions.
    [The prepared statement of Dr. Geltzer follows:]
                Prepared Statement of Joshua A. Geltzer
                              May 23, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for this opportunity to address the persistent 
threat posed by ISIS even as its physical safe haven in Iraq and Syria 
shrinks and the implications of this persistent threat for the United 
States and the West.
    ISIS's purported caliphate in Iraq and Syria is shriveling, but it 
is not gone. That, in itself, poses a continuing threat to the United 
States, one worsened by the current administration's inability to keep 
our key partner in the fight against ISIS. Moreover, even as ISIS faces 
increasing pressure in physical space, it retains a significant 
foothold in virtual space, and will utilize the global following that 
it has built through the internet to continue to reach into the United 
States to recruit and radicalize followers. That threat is, 
unfortunately, also aggravated by factors of our own current 
leadership's making, with both rhetoric and policies that are 
alienating key communities. Finally, ISIS could turn to new forms of 
attacks against American targets, including novel types of cyber 
operations, against which the United States appears to be lagging in 
its preparation.
              isis's continuing hold on territory in syria
    That ISIS has been dislodged from almost all of the territory that 
it once held in Iraq and Syria is a tremendous accomplishment for which 
both the Obama and Trump administrations deserve major credit. From the 
work of our military on the ground and in the skies to target ISIS 
fighters, to the work of our diplomats to build and maintain an 
unprecedented coalition of partners, to the work of our intelligence 
community to track and locate key ISIS figures, to the work of our law 
enforcement and homeland security professionals to constrain the flow 
of Americans to the battlefield as foreign fighters, the progress 
achieved in the counter-ISIS campaign reflects the remarkable 
capability and dedication of America's National security officials.
    But, as I have noted elsewhere, ``the last mile of defeating a 
terrorist group can be the hardest one, as the United States learned 
all too well from the lingering remnants of ISIS's predecessor, al-
Qaeda in Iraq.''\1\ And, with respect to ISIS today, thousands of 
fighters appear to be enjoying a worrisome opportunity to regroup. That 
is in significant part because the United States has lost its key 
counterterrorism partner on the ground in Syria, the Syrian Kurds, a 
major setback that reflects the current administration's inability to 
manage a delicate diplomatic balance between them and the Turkish 
government. Since the earliest days of the counter-ISIS campaign, 
Washington has had to address both Turkish fears and Syrian Kurdish 
ambitions so as to retain, on the one hand, a key counter-ISIS and NATO 
partner in Turkey and, on the other hand, a vital counterterrorism 
ground force in the Syrian Kurds. In recent months, this delicate but 
essential arrangement has fallen apart, with the Turks bombing Kurds in 
the northern Syrian city of Afrin and, in response, fellow Kurds 
turning away from their pursuit of ISIS into the Euphrates River Valley 
to defend their brethren against the Turks. All told, and as I have 
explained at greater length elsewhere, ``the Trump administration's 
inability to continue managing the tensions between Turkey and the 
Syrian Kurds is providing the Islamic State with the time and space to 
regroup and pose a resurgent threat to the United States and the rest 
of the world.''\2\
---------------------------------------------------------------------------
    \1\ Joshua A. Geltzer, ``The Perils of a Post-ISIS Middle East,'' 
The Atlantic, December 27, 2017, https://www.theatlantic.com/
international/archive/2017/12/middle-east-isis-syria-kurds-iran-iraq-
turkey-trump/549227/.
    \2\ Joshua A. Geltzer, ``When Diplomacy Disappears,'' Foreign 
Policy, April 18, 2018, http://foreignpolicy.com/2018/04/18/when-
diplomacy-disappears-counterterrorism-isis-syria-turkey-kurds-ypg-pkk-
erdogan-trump/.
---------------------------------------------------------------------------
    While one recent report suggests that a small number of those 
partner forces might be returning to the counter-ISIS fight, most 
appear still to have abandoned it, leaving the counter-ISIS campaign 
``effectively ground to a halt.''\3\ That is a dangerous development 
for at least two reasons. First, it provides the remaining thousands of 
ISIS fighters with the type of safe haven that enables ISIS to plot 
attacks and rebuild networks into the West. That means ISIS can 
continue to use that space to hatch plots against us, as well as the 
safe havens outside Iraq and Syria that ISIS has built and even appears 
to be expanding, especially in parts of Africa and Southeast Asia.\4\ 
Second, it allows ISIS to continue to lay claim to a purported physical 
caliphate--the rallying cry for ISIS's continuing virtual presence 
intended to recruit and radicalize followers through the internet. That 
means ISIS can continue to inspire attacks wherever its message 
resonates with vulnerable individuals, including here in the United 
States--a broader challenge to which I now turn.
---------------------------------------------------------------------------
    \3\ Eric Schmitt, ``American Warplanes Shift Tactics to Target Last 
ISIS Pockets in Eastern Syria,'' The New York Times, April 24, 2018, 
https://www.nytimes.com/2018/04/24/world/middleeast/american-warplanes-
isis-syria.html.
    \4\ Yaroslav Trofimov, ``Faraway ISIS Branches Grow as `Caliphate' 
Fades in Syria and Iraq,'' The Wall Street Journal, May 17, 2018, 
https://www.wsj.com/articles/faraway-isis-branches-grow-as-caliphate-
fades-in-syria-and-iraq-1526558401.
---------------------------------------------------------------------------
                   isis's persistent virtual presence
    As I have described in more detail elsewhere, while ISIS's ``claim 
to a physical caliphate helped [ISIS] to grab attention and gain 
adherents since its 2014 surge, that message gained swift global 
traction because of the group's sophisticated use of social media, 
file-upload sites, and other modern communications platforms to 
radicalize and mobilize followers world-wide.''\5\ The crumbling of the 
physical caliphate will undercut the credibility of key aspects of 
ISIS's on-line appeal, but it will not undermine the group's messaging 
entirely, nor will it dislodge the virtual foothold that ISIS has built 
for itself on-line, even as leading technology companies have taken 
some meaningful steps to address ISIS's persistent presence on their 
platforms.
---------------------------------------------------------------------------
    \5\ Joshua A. Geltzer, ``ISIL, al-Qaeda, and What Goes Viral Next: 
Why Tomorrow's Jihadist Movement Might Not Look so Different from 
Today's,'' Texas National Security Review, March 20, 2018, https://
tnsr.org/roundtable/policy-roundtable-future-jihadist-movement/#essay4.
---------------------------------------------------------------------------
    That is because ISIS has a multi-faceted recruitment message; and, 
as battlefield losses force it to shift away from on-line messaging 
emphasizing the holding of territory and the attempt to govern such 
territory, ISIS can fall back on other themes to rally the faithful and 
appeal to those potentially vulnerable to the group's outreach. Charlie 
Winter has identified six such themes: Brutality, mercy, victimhood, 
war, belonging, and utopianism.\6\ If emphasizing the theme of war 
appears to ISIS less promising for a period of time, at least in 
relation to battlefield trends in Iraq and Syria, then the theme of, 
for example, victimhood remains available. In this sense, ISIS's 
message is essentially non-falsifiable: Victories and progress 
vindicate aspects of that message, but setbacks and suffering vindicate 
other aspects.
---------------------------------------------------------------------------
    \6\ Charlie Winter, ``The Virtual `Caliphate': Understanding 
Islamic State's Propaganda Strategy,'' Quilliam, July 2015, 
www.stratcomcoe.org/download/file/fid/2589.
---------------------------------------------------------------------------
    The most important of ISIS's themes, especially for luring new 
recruits, may well be that of belonging. Alongside the group's 
proclaiming of a purported caliphate and holding of a wide swath of 
territory, its most distinctive accomplishment has been cultivating a 
sense of belonging among audience members around the world--even many 
who have never joined the group on the battlefield and do not intend to 
do so. Through visceral appeals to a sense of community grounded in the 
physical caliphate but extending far beyond it, ISIS has made these 
followers and supporters feel part of something bigger than themselves 
by belonging to ISIS and its movement. This is why my former White 
House colleague Jen Easterly and I have objected to the use of ``lone 
wolves'' to describe those inspired by ISIS to execute attacks from 
Orlando to Manchester to Berlin: ``The Islamic State thus offers a 
chance to those who feel alone--those who may lack opportunities or who 
may simply disagree with the politics or mores of the society around 
them--not to be lone actors'' but to belong to something bigger 
instead.\7\
---------------------------------------------------------------------------
    \7\ Jen Easterly & Joshua A. Geltzer, ``The Islamic State and the 
End of Lone-Wolf Terrorism,'' Foreign Policy, May 23, 2017, http://
foreignpolicy.com/2017/05/23/the-islamic-state-and-the-end-of-lone-
wolf-terrorism/.
---------------------------------------------------------------------------
    ISIS's internet-enabled message has, unfortunately, resonated even 
here in the United States. From American citizen Omar Mateen, who was 
responsible for the death of 50 innocent victims through his assault on 
Orlando's Pulse Nightclub, to lawful permanent resident Sayfullo 
Saipov, who has been charged with killing 8 innocent victims with a 
rental truck in downtown Manhattan last Halloween, some who live on 
U.S. soil have proven susceptible to ISIS's hateful exhortations of 
violence. As Peter Bergen has documented, a common link among those who 
attempt or succeed in terrorist activity in the United States is their 
consumption of terrorist recruitment materials on-line.\8\ ISIS's 
ability to reach across National borders and into our country to 
attempt to recruit and radicalize followers is simply not going to 
disappear even as the group's physical foothold in Iraq and Syria 
shrinks. If anything, ISIS's virtual foothold may increase in 
importance to the group, leading it to devote more energy and effort to 
sustaining and augmenting the sense of belonging that ISIS has been 
able to cultivate among supporters world-wide. Indeed, as ISIS's 
leadership reportedly focuses on ``crafting an ideological framework 
that will survive the physical destruction of the caliphate in Iraq and 
Syria,''\9\ it seems almost certain that the group intends to 
communicate and propagate that framework in significant part on-line.
---------------------------------------------------------------------------
    \8\ Peter Bergen, ``Jihadist Terrorism 15 Years After 9/11: A 
Threat Assessment,'' New America, September 8, 2016, https://
www.newamerica.org/international-security/policy-papers/jihadist-
terrorism-15-years-after-911/.
    \9\ Joby Warrick & Souad Mekhennet, ``New Clues Bolster Belief that 
ISIS Leader Is Still Alive--and Busy with a Chilling New Mission,'' The 
Washington Post, May 19, 2018, https://www.washingtonpost.com/world/
national-security/new-clues-bolster-belief-that-isis-leader-is-still-
alive-and-busy-with-a-chilling-new-mission/2018/05/19/83c2a62e-5ad2-
11e8-858f-12becb4d6067_story.html?utm_term=.83a2b7b662b6.
---------------------------------------------------------------------------
          aggravating factors of the white house's own making
    ISIS's continuing ability to mobilize potential terrorists here in 
the United States would be concerning enough, but that concern is 
compounded by rhetoric and policies of the current administration that 
are making the problem worse. Donald Trump, as a Presidential candidate 
and now as President, has persistently spoken about Islam and Muslims 
in ways that validate ISIS's attempt to portray the United States as 
waging war on a religion and its people. As a candidate, Donald Trump 
said, ``We have a problem in this country; it's called Muslims''; he 
called for ``a total and complete shutdown of Muslims entering the 
United States''; he characterized Muslims as ``sick people''; he stated 
that ``We're having problems with the Muslims''; and, regrettably, he 
has said much more along these lines as well, even as President.\10\ In 
addition to being appalling, this sort of language appears to validate 
ISIS's message and alienates key communities in the United States and 
abroad whose cooperation is vital to identifying those who might be 
vulnerable to ISIS's appeal and to intervening before such individuals 
turn to violence. Moreover, President Trump's ``habit of stoking fears 
rather than reassuring the public in the wake of terrorist 
attacks''\11\ increases the impact of those attacks precisely as 
terrorists desire, rather than thwarting terrorists' goal of spreading 
fear as good counterterrorism strategy demands by ``building resilience 
[that] can minimize the effects of terrorism.''\12\
---------------------------------------------------------------------------
    \10\ Jenna Johnson & Abigail Hauslohner, `` `I Think Islam Hates 
Us': A Timeline of Trump's Comments About Islam and Muslims,'' The 
Washington Post, May 20, 2017, https://www.washingtonpost.com/news/
post-politics/wp/2017/05/20/i-think-islam-hates-us-a-timeline-of-
trumps-comments-about-islam-and-muslims/?utm_term=.05443facd771.
    \11\ Joshua A. Geltzer & Stephen Tankel, ``Whatever Happened to 
Trump's Counterterrorism Policy?'', The Atlantic, March 1, 2018, 
https://www.theatlantic.com/international/archive/2018/03/trump-
terrorism-iraq-syria-al-qaeda-isis/554333/.
    \12\ Jennie M. Easterly & Joshua A. Geltzer, ``More Die in Bathtubs 
than in Terrorism. It's Still Worth Spending Billions to Fight It,'' 
CNN.com, May 21, 2018, https://www.cnn.com/2017/05/21/opinions/deadly-
bathtub-compared-to-terrorism-opinion-geltzer-easterly/index.html.
---------------------------------------------------------------------------
    Beyond counterproductive language, President Trump has pursued 
policies that further alienate those communities and make us less safe 
rather than more. Most notable among these is the travel ban, now in 
its third iteration and under review by the Supreme Court. As I wrote 
recently alongside former Director of National Intelligence Jim Clapper 
and former Director of the National Counterterrorism Center Matt Olsen, 
``Trump's travel ban fails to respond to threats to our country and 
actually undermines our security.''\13\ The ban simply is not 
responsive to real threats: no national from any of the countries 
affected by the ban has caused any of the terrorism-related deaths on 
U.S. soil since 1975. But the ban does create threats to the 
effectiveness of our country's counterterrorism efforts. As we 
explained:
---------------------------------------------------------------------------
    \13\ James R. Clapper, Jr., Joshua A. Geltzer, & Matthew G. Olsen, 
``We've Worked on Stopping Terrorism. Trump's Travel Ban Fuels It,'' 
CNN.com, April 23, 2018, https://www.cnn.com/2018/04/23/opinions/trump-
travel-ban-fuels-terrorism-clapper-geltzer-olsen/index.html.

``The ban is so obviously, palpably, indeed explicitly anti-Muslim in 
nature that it has--understandably--offended Muslim-American 
communities around the world, including in the United States. Yet those 
are precisely the communities that can prove critical for identifying 
and responding to individuals becoming radicalized by groups like ISIS 
and al-Qaeda. Moreover, effective counterterrorism relies heavily on 
robust intelligence-sharing relationships with foreign governments. 
Banning all travelers from a foreign country seems a surefire way to 
offend that country's government and impede intelligence-sharing, 
rather than enhancing the flow of information about terrorist threats 
---------------------------------------------------------------------------
as effective counterterrorism requires.''

    The travel ban is, unfortunately, not alone among President Trump's 
policies that have been counterproductive for keeping Americans safe 
from terrorism. For example, the Trump administration withdrew 
previously awarded grants to organizations dedicated to addressing 
white supremacists' brand of violent extremism, a baffling decision 
that came to look particularly egregious after the deadly violence last 
August in Charlottesville, Virginia.\14\ These types of policies make 
Americans less safe not only by deliberately doing less to protect them 
from domestic terrorism--which can be just as deadly as terrorism 
associated with jihadist organizations such as ISIS\15\ and, as my 
Georgetown Law Center colleague Mary McCord has explained, just as 
morally repugnant\16\--but also by giving the distinct impression that 
the Trump administration is interested in terrorism only when it is 
being carried out by groups purporting to act in the name of Islam.
---------------------------------------------------------------------------
    \14\ Ron Nixon & Eileen Sullivan, ``Revocation of Grants to Help 
Fight Hate Under New Scrutiny After Charlottesville,'' The New York 
Times, August 15, 2017, https://www.nytimes.com/2017/08/15/us/politics/
right-wing-extremism-charlottesville.html.
    \15\ Miriam Valverde, ``A Look at the Data on Domestic Terrorism 
and Who's Behind It,'' PolitiFact, August 16, 2017, http://
www.politifact.com/truth-o-meter/article/2017/aug/16/look-data-
domestic-terrorism-and-whos-behind-it/.
    \16\ Mary B. McCord, ``Criminal Law Should Treat Domestic Terrorism 
as the Moral Equivalent of International Terrorism,'' Lawfare, August 
21, 2017, https://lawfareblog.com/criminal-law-should-treat-domestic-
terrorism-moral-equivalent-international-terrorism.
---------------------------------------------------------------------------
    All told, President Trump's anti-Muslim rhetoric and policies play 
into ISIS's hands as the group seeks to mobilize followers in the 
United States and around the world. The President's language and 
policies serve as aggravating factors in the already-difficult 
challenge associated with addressing ISIS's ability to radicalize 
followers through the internet.
                      new forms of cyber terrorism
    Thus far, radicalization has been ISIS's primary utilization of the 
internet: As noted, the group has made novel use of social media, file-
upload sites, and other modern communication platforms to inspire 
attacks world-wide. As ISIS loses its hold on physical territory in 
Syria, one concerning possibility is that the group will look to new 
forms of cyber terrorism to cause harm here in the United States.
    Without as much of a physical safe haven from which to plot attacks 
and inspire followers, ISIS may seek to wreak havoc through cyber 
operations that do not require large numbers of fighters or expansive 
territorial holdings. Such efforts would build on earlier ISIS cyber 
efforts, such as the collaboration between now-imprisoned Ardit 
Ferizi\17\ and the late Junaid Hussain\18\ to obtain and then make 
public the personally-identifiable information of U.S. service members. 
In the years since those efforts, malicious cyber activity outside the 
context of terrorism has dramatically increased, with powerful hacking 
tools no longer the exclusive province of nation-states. This would 
seem to make obtaining and using those tools increasingly appealing 
and, unfortunately, increasingly feasible for a terrorist group such as 
ISIS. For example, if ISIS were able to recruit and utilize the right 
technological expertise and acquire the increasingly available tools to 
do so, ISIS might exfiltrate sensitive data from computer systems or 
simply alter it in ways that could generate mayhem for financial 
markets or medical records. Alternatively, and perhaps more likely 
given ISIS's desire to instill fear and grab headlines through dramatic 
attacks, ISIS might attempt to cause tangible damage in the physical 
world by hacking into the systems that are used to control and operate 
power plants and electric grids. These sorts of cyber operations would 
be novel for a terrorist group; and they would not only cause real 
damage but also generate the type of excitement and belief among 
followers and supporters that ISIS surely is seeking to recapture as 
the physical caliphate that the group once touted shrinks.
---------------------------------------------------------------------------
    \17\ Department of Justice, ``ISIL-Linked Kosovo Hacker Sentenced 
to 20 Years in Prison,'' September 23, 2016, https://www.justice.gov/
opa/pr/isil-linked-kosovo-hacker-sentenced-20-years-prison.
    \18\ Nafees Hamid, ``The British Hacker Who Became the Islamic 
State's Chief Terror Cyber-Coach: A Profile of Junaid Hussain,'' CTC 
Sentinel, Volume 11, Issue 4, pages 30-37, https://ctc.usma.edu/app/
uploads/2018/04/CTC-SENTINEL-042018-2.pdf.
---------------------------------------------------------------------------
    Here, too, there is cause for concern that the Trump administration 
is not appropriately tackling the challenge. As of this writing, the 
top position overseeing cyber policy at the White House--the Assistant 
to the President for Homeland Security and Counterterrorism--is vacant, 
and the next most senior cyber position--the National Security Council 
staff's Special Assistant to the President and Cybersecurity 
Coordinator--was recently eliminated. As I have commented elsewhere, 
this undoing of key White House leadership on cyber-related policy 
matters ``seems to send a strange message as to how this White House is 
prioritizing something most of us think the government needs to 
prioritize more.''\19\ While there are various plausible arrangements 
for structuring the leadership of the National Security Council staff, 
this seemingly deliberate diminution of leadership on cyber issues is 
particularly puzzling given how rapidly cyber-related threats are 
evolving and given how much our response requires the type of strategic 
leadership and interagency coordination that only the White House can 
provide. To the extent that ISIS turns to new types of cyber operations 
to regain momentum and inflict harm, this lack of leadership may prove 
a serious vulnerability, even as our military is taking the positive 
step of elevating Cyber Command to a unified combatant command.\20\ 
Military and other key tools available to our government in the cyber 
arena require clear and forward-looking strategies, authorities, 
policies, and legal frameworks--especially given that the likely target 
of cyber terrorism may well be critical infrastructure controlled by 
private industry, which introduces distinctive complexities when it 
comes to formulating and implementing a governmental response.
---------------------------------------------------------------------------
    \19\ Brian Barrett, ``White House Cuts Critical Cybersecurity Role 
as Threats Loom,'' Wired, May 15, 2018, https://www.wired.com/story/
white-house-cybersecurity-coordinator/ (quoting Joshua A. Geltzer).
    \20\ Matthew Cox, ``Cyber Command Elevated to Combatant Command,'' 
Military.com, May 4, 2018, https://www.military.com/defensetech/2018/
05/04/cyber-command-elevated-combatant-command.html.
---------------------------------------------------------------------------
                               conclusion
    The crumbling of ISIS's caliphate in Iraq and Syria is a major 
positive development for U.S. National security, for the security of 
our allies and partners, and for the stability of the Middle East 
region. But it is not the end of the threat posed by ISIS to the United 
States. The group retains some territory in Syria; is expanding its 
physical presence in other parts of the world; continues to make shrewd 
use of its virtual presence to recruit and radicalize followers; and 
could look to novel cyber operations as access to dangerous cyber tools 
becomes easier for non-state actors. This state of affairs would be 
challenging enough for the dedicated National security professionals 
who work to secure our homeland; but the challenge is compounded by 
aggravating factors of the Trump administration's own making. The 
failure to retain our key partner on the ground in the fight against 
ISIS; the relentless anti-Muslim orientation of President Trump's 
rhetoric and policies; and the seemingly deliberate absence of White 
House leadership to provide strategic vision and interagency 
coordination in the cyber arena all make the persistent threat posed by 
ISIS harder to address. That is unfortunate given the considerable 
scope of the challenge in the first place and given ISIS's likely 
evolution and adaptation to changed circumstances in ways that will 
pose new forms of terrorist threats to our country.
    I am grateful for the opportunity to discuss these important issues 
and look forward to the committee's questions.

    Chairman McCaul. Yeah, I want to thank the witnesses for 
your opening statements. I recognize myself for questions. 
Yeah, I remember 2014 to 2016, my threat briefings, the ones 
that this committee had, were, for lack of a better word, 
intense. External operations were being talked about almost on 
a weekly basis. We were arresting ISIS, not only abroad, but in 
this country on almost on a weekly basis. That has actually 
calmed down a little bit.
    I was in Paris and Brussels before they were hit, warning 
them about the lack of sharing vital intelligence, lack of 
knowing the manifest on airplanes, and then they were hit 
shortly thereafter. Then a new threat emerged, and it was the 
internet. A man by the name of Junaid Hussain from the United 
Kingdom was in Syria, and I was down at CENTCOM looking at the 
internet cafe out of which he operated, and we finally were 
able to take him out, and that internet activity went down. But 
that became the power and the global outreach of the jihad 
movement through Junaid Hussain.
    But then by the end of 2017, even though they had gained 
territory the size of the United Kingdom, by the end of 2017, 
they lost over 90 percent of their territory. I will tell you 
the threat briefings, while I am still very concerned, I do 
think the tempo and the pace has gone down. But I do think the 
threat does remain, as they have retreated into the Euphrates 
River Valley, they are still in the Middle East, and they are 
also in Northern Africa, places like Libya, Tunisia, Sinai, in 
Egypt, and the Sahel in the middle of Africa, and also 
southeast Asia.
    My first question I want to direct to the Ambassador and 
the General, because you have been there in service for so 
long, and it is almost a foreign policy question in a way. The 
post-caliphate strategy. I think, you know, the previous 
administration--you know, we always hear the phrase, ``leading 
from behind,'' but not making a decision is a decision in and 
of itself. Drawing red lines and allowing them to be crossed is 
a decision.
    Allowing countries like Russia to then come in to Syria, 
allowing Iraq--I am sorry, Iran, to establish a Shia crescent 
to Iraq and Syria and Lebanon and Yemen. So now, we have Iran 
in Iraq and Syria. We have the Russians back for the first time 
since 1979 when they were in Afghanistan. We have got the 
Saudis. We have Israel launching rockets into Syria. One of the 
biggest crises--sort of a civil war conflict refugee problems 
of our lifetime in some respects, not to mention Turkey, now 
fighting the very forces that we fought with to defeat ISIS.
    This is, perhaps, the most complex and challenging foreign 
policy crisis I think that we have had. Can you make any sense 
out of this? What would be your focus and your strategy looking 
at the post-caliphate Iraq and Syria?
    Mr. Crocker. Thank you, Mr. Chairman. You have summarized 
an impossibly complex situation very neatly. It is hugely 
complex. I spent more years of my life than I care to remember 
experiencing Lebanon's civil war. In its hot phase, that lasted 
15 years, and it ended in 1990, only when the Syrian Army 
occupied the Presidential Palace outside of Beirut, and forced 
Michel Aoun into sanctuary in the French Embassy. That would be 
the same Michel Aoun who is running the country.
    In Syria, the list of players is far longer than it ever 
was in Lebanon. You mentioned some of them. The United States, 
Russia, Turkey, Saudi Arabia, Israel, United Arab Emirates, 
Qatar, to name a few. Inside Syria, the Syrian Democratic 
Forces, the Syrian Free Army, the YPG, al-Qaeda, obviously, the 
Islamic State, Ahrar al-Sham, and again, we can go on. Why is 
this important? We saw why several months ago.
    The Iranians, I guess, having a slow afternoon, decided 
they would put a drone over Israel and see what happened. 
Israeli shot it down and then retaliated with air strikes, but 
they lost the plane, the first time since 1985. Fortunately, 
that plane crashed in Israel, and both crew members survived. 
Had it been otherwise, we could now be in a massive regional 
conflict.
    Everybody kind-of took a step back because nobody wanted 
that war then, but nobody wanted World War I either. So when an 
obscure archduke was assassinated in an even more obscure city, 
those were the Guns of August. I have dusted off my copy of the 
book by that name, Barbara Tuchman, it is worth taking a look 
at now in the Syria context. So this is highly dangerous. We 
cannot settle it militarily, but we need to be in concert with 
all of our friends and allies talking about a problem that can 
blow the lid off the region and beyond. We need to stay 
engaged.
    Chairman McCaul. Thank you. My time is just about expired. 
I want to give General Keane at least a minute to respond, 
because as I see it, Assad has never been more powerful now, 
backed by the Iranians and the Russians, and he is using 
chemical weapons. It is like the biblical sense of all roads 
lead to Damascus.
    Can you make any sense of out of this and what should we 
doing moving forward?
    General Keane. I really think the strategic imperative for 
the United States dealing with the Middle East is the hegemonic 
objectives that Iran has in imposing their will on the Middle 
East, and to dominate it and influence and control it. They 
have had some significant success in Lebanon, Syria, Iraq, and 
now in Yemen, and they certainly just recently, as mentioned, 
encroaching on Israel, which has always been a strategic 
objective for them.
    At a minimum, put enough pressure on Israel as Iran will 
eventually try to develop a nuclear weapon that Israel will not 
respond militarily, because the Iranians would have rockets and 
missiles fired at Israel from Lebanon, and also from bases in 
Syria, which they are trying do right now. I don't know how you 
approach that problem of a major aggressor like that who is 
applying resources and achieving success without doing that as 
a multilateral approach.
    I felt, for a long time, that we need a sort of Arab NATO 
in the Middle East, a political and military alliance that 
works so well and stand it up against another ideology in the 
20th Century. We need to approach this problem comprehensively 
in the Middle East. It is not just about using military 
weapons, it is the entire spectrum that a political, economic, 
diplomatic, and military alliance would bring to that problem.
    Second, of course, is the breeding ground for radical 
Islam. Again, to approach that problem, we have to be organized 
for it, we have to undermine their ideology and propaganda, and 
we have to encourage our allies in that region to move in the 
right directions in terms of moving away from the conditions 
that are so paramount and set the stage for people--the ability 
to recruit. I am talking about what I said in my statement in 
terms of lack of political and social justice, lack of economic 
opportunity, the instability by poor governance, et cetera. 
This is a major problem.
    The one thing I do know, Mr. Chairman, and I have had this 
discussion with the administration. To wash our hands of this 
and to walk away, because, No. 1, we have lost thousands of 
soldiers there; No. 2, we spent a lot of money there; and, No. 
3, there may be a lack of political will in the country, it 
would be a huge strategic mistake. The Middle East cannot 
explode. If we let that explode, it will harm the United States 
in terms of our own security of our people, and also those of 
our allies and our National interests as well.
    Chairman McCaul. Thank you. I completely agree with you. 
The Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much. Both answers were, to 
the Chairman's questions, quite illuminating. The one thing 
that I would want a conversation with the Ambassador and 
General on this: To what degree will budget cuts for the State 
Department and others impact your response that you just made 
to the Chairman?
    Mr. Crocker. Thanks very much for that critical question, 
sir. The 31 percent budget cut that was proposed for the State 
Department, and which then-Secretary Tillerson saw fit not to 
oppose, would have crippled the Department and the foreign 
service for years to come. Damage has been done already. We 
took in about 100 new officers in calendar 2017, the year 
before it was 370.
    We need to promote about 100 officers a year into the 
senior foreign service. Last year, we promoted 47. So this is 
creating a structural problem we will wrestle with for years to 
come. As we face this enormously complex threat and fight, to 
do that with a weakened foreign service is not protecting our 
National security. We are the ones who are forward. We are more 
expeditionary than the Marines even. That is why it is called 
the foreign service.
    We know the cultures, we know the languages. Every foreign 
service officer is fluent in at least one foreign language. But 
we have almost been decimated. I am very pleased to see that 
Secretary Pompeo realized, that from Day 1, and has already 
taken steps to undo some of the damage by the previous 
Secretary with his ending of the hiring freeze. There is more 
to be done, listening to his statements, I am confident that he 
will try to get that accomplished.
    But this is not the time to weaken the diplomatic side of 
this fight. If there is anything I learned in places like 
Afghanistan and Iraq, there are no purely military tracks. 
There are no purely diplomatic tracks, they are all fused 
together. If you weaken the diplomatic part of the triad, you 
are heading for trouble, and trouble in this instance would 
mean a threat to our National security.
    Mr. Thompson. General, do you have some comments?
    General Keane. Yeah, just quickly. I agree with Secretary 
Mattis, who believes in a strong Department of State, and we 
only have several thousand diplomats. It is actually a very 
small service that we have. We clearly have to reinforce it. 
The thought of reducing the State Department's budget is 
ludicrous. It makes no sense to me whatsoever. If anything, we 
should be increasing it.
    You know, when the budget numbers from OMB are presented to 
the Department of Defense, that begins the negotiations. We 
never accept those numbers. We fight like daylight to make sure 
that the budget is what it should be inside the Executive 
branch. When the State Department gets the budget, I know this 
from having spoken to them from OMB, they just accept it.
    The reality is, they are underfunded and they are on 
demand, and we cannot reduce this capability. They work hand-
in-glove with the military. They keep us out of fighting wars, 
but the United States military can strengthen the diplomatic 
hand when we have a credible deterrence as we have seen around 
the world. So I totally agree with your sentiments, Ranking 
Member.
    Mr. Thompson. Thank you very much. Dr. Gartenstein-Ross, 
you talked about, in this effort to defeat ISIS, that we are 
going to have to lead. The Ambassador talked a little bit about 
that, too. But everyone seemed to agree that the new frontier 
is around technology and the ability to recruit and do other 
things. Are there some things that you think we should be doing 
as Congress to fortify that new frontier?
    Mr. Gartenstein-Ross. Thanks for that great question, sir. 
I do. I think the most important thing that Congress could do 
is to take a strong look at the acquisition process. You know, 
there are multiple areas in which the U.S. Government has been 
trying to make the acquisition process more efficient and 
faster. Efforts like DIUX and some of the special operations 
branches, retooling of their budgetary processes is important, 
because right now, everyone who is around Government knows that 
often, the U.S. Government ends up not getting the product that 
it wants, it ends up overpaying for an inferior service. For 
most private-sector firms, if they were run this way, they 
would be out of business fairly quickly.
    For technology, with things moving as quickly as they are, 
I think we can't afford, not just for terrorism, but also for 
the great power competition that we now have with both China 
and Russia, to be significantly behind in this race. When it 
comes to things ranging from surveillance, and the ability of 
the Chinese government, in particular, to spy on us, to 
artificial intelligence, which we are right now, I think, 
falling behind in, there is a real need for the U.S. Government 
to be able to acquire private-sector expertise and private-
sector research in a way that is efficient, and in a way that 
can ensure that it gets the product and the quality that it 
wants.
    Mr. Thompson. Thank you. Dr. Geltzer, can you comment on 
that?
    Mr. Geltzer. Thank you for the opportunity, Mr. Ranking 
Member. I think the tech companies are, in some ways, on the 
front lines of this fight, but I think there is a real role for 
Congress in pushing them to do more. They have taken some steps 
for which they deserve credit. If you go back a little over a 
year ago, some of the major companies agreed on what they 
called a hash-sharing coalition. So pieces of terrorism-related 
content that any one company in the coalition identifies now 
gets shared with the other companies to see if those companies 
deem them to violate their own terms of service. That was a 
step forward.
    Six months after that, the same company has agreed to share 
the tools that they used to find those types of content. That 
was a step forward. I think there are more steps forward that 
can and should come. For example, one might ask the tech 
companies, instead of just sharing the piece of the content, 
why not share the information associated with those pieces of 
content and with the accounts associated with the content?
    In other words, if a piece of content has been uploaded to 
one platform by an account, and is deemed to have broken its 
terrorism-related terms of service, maybe another company has 
an account created by the same email address, or otherwise 
affiliate with it, that has uploaded terrorism-related 
information or messages as well. That would be a step forward.
    Playing with artificial intelligence, even to try to 
identify, based on past terrorism-related pieces of content or 
accounts, future ones before they are even uploaded to see 
whether, in fact, they should be, or whether they violate 
service on terrorism-related grounds. That could be a step 
forward.
    So I think Congress has a role to play, especially as tech 
companies find themselves on the Hill sometimes these days, 
asking those sorts of questions and asking, What comes next?
    Mr. Thompson. Thank you. I yield back, Mr. Chair.
    Chairman McCaul. Let me just echo the Ranking Member's 
sentiments and the panel on--I had dinner at the Marine 
barracks with Secretary Mattis, and he talks about if you cut 
diplomats, you are going to have to buy more bullets. I think 
his job is, as he said it, is put maximum pressure so the 
diplomats can do their job. So I just want to reinforce that 
point.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you all for 
being here. General, you know, we have talked about--you made a 
statement about we regained most of the territory in Iraq and 
Syria that the foreign fighters had occupied. But as those 
foreign fighters are being pushed out, they are moving into the 
Africa and Asia. We have noticed that they have been pretty 
resourceful in moving around western Europe, and they continue 
to plot to get into the United States to execute attacks.
    Do you perceive those foreign fighters as they move into 
these regions, executing attacks from there, or trying just to 
refocus their energies to move back into the Middle East and 
try to retake territory?
    General Keane. I don't see them going back into Iraq and 
Syria, but I do see some of those foreign fighters, 2,000 of 
them have returned to Europe, and certainly, their potential to 
conduct terrorist operations for sure. Others have moved to 
other affiliate organizations that are ISIS-supported 
organizations in Libya and Tunisia, in Sahel in the Sinai. So 
there is plenty of opportunity for them to--once they have 
committed to that ideology, usually they don't separate 
themselves from it. Usually death is what separates them from 
it.
    So regaining the caliphate, or some semblance of it, would 
only happen if we walk away. If the political situation in Iraq 
does not enfranchise the Sunnis, then you have a potential rise 
again of a radical Islamist organization in Syria. We have just 
got to finish what we started and recognize that it is not 
over, and continue to clean the remnants of that out. If we 
don't, if we pull away from eastern Syria, than they will--the 
leadership is still there. They will certainly try to resurge 
and regain some small safe haven. That would draw foreign 
fighters if that happens. That is the only situation that I see 
that would bring back their return.
    But they are operating in other areas supporting movements 
in other countries as we speak, and also, hiding in the shadows 
in Europe waiting for an opportunity.
    Mr. Rogers. An opportunity to do what? To bring down 
western civilization----
    Mr. Geltzer. No, no. To conduct individual terrorist 
attacks, or to try to form a cell or larger network.
    Mr. Rogers. To what end?
    General Keane. Certainly, their objectives--yes, the goal 
of radical Islamist movement, whether it is al-Qaeda or whether 
it is ISIS does have a global objective to it. Replace western 
civilization, much more than that. To dominate world 
civilization, and undermine the international order as we 
currently know it; and that has been their aspiration, you 
know, from the beginning.
    Mr. Rogers. Ambassador, what are your thoughts about that? 
I am particularly concerned about the large number of them in 
western Europe, but obviously here, too. What do you think is 
going on?
    Mr. Crocker. Thank you, Congressman. In a sense, the most 
dangerous period in terms of our own National security may be 
approaching, and it will come with the overt military defeat of 
Islamic State. Their ideology, as you know, had always been 
that the caliphate was critical. They are now losing the last 
traces of that physical caliphate. So they are going to have to 
develop a new ideology to justify their existence.
    So I would think that that is the moment when they will put 
all they have, wherever they are, into figuring out how they 
can do their version of 9/11. They couldn't hold territory in 
the field. I think the next step will be for them to do 
everything they can from wherever they can stage it, to show 
that they can hit back, and hit back hard within our homeland 
and within the European homelands.
    Mr. Rogers. Do you think we are doing enough in concert 
with our European allies to prepare for that or anticipate 
that?
    Mr. Crocker. I don't really have visibility on the specific 
actions. My sense is that--and, again, indeed this committee 
would know far more, is that the administration, as was the 
case with the previous administration, takes this very, very 
seriously. I would say, though, we like to talk about 
intelligence failures, and certainly, there are intelligence 
failures.
    But the failures that hurt us the most are failures of 
imagination. We couldn't imagine the 9/11 attacks. We couldn't 
imagine the destruction of the Marine barracks in Beirut and 
the death of 241 Marines, beyond our imagination. So I would 
hope that in the skunk works of the administration, there are 
some really bright people doing that kind of imagining.
    If we expect to get it all through intelligence, we won't, 
we can't. Again, the failure of the future that we may be 
holding endless hearings on would be just that. A failure of 
the imagination with respect to a committed enemy.
    Mr. Rogers. Thank you. My time is expired, I yield back.
    Chairman McCaul. The gentleman yields. The gentleman from 
Rhode Island, Mr. Langevin, is recognized.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for your testimony here today, and, in 
particular, Ambassador Crocker and General Keane, thank you for 
your service to the country.
    Dr. Gartenstein-Ross, let me start with you, if I could. On 
the issue of drones, you described in your testimony, ISIL's 
extensive weaponization of commercial drone technology. I am 
sure you are very concerned, as the Chairman is, about the 
possibility of drone-based terrorism, including domestically. I 
worked with my colleague, Senator Whitehouse, Senator Sheldon 
Whitehouse from Rhode Island, legislation criminalizing the 
reckless operation of drones.
    Are you concerned that ISIL might aid or inspire someone in 
the United States to use a drone to carry out a violent attack? 
What more can we be doing to prevent this kind of an action?
    Mr. Gartenstein-Ross. Sir, that is a great question. Yes, I 
am definitely concerned. The major reason for my concern is 
that we are seeing major leaps forward in drone technology and 
what can be done with them. Ambassador Crocker talks about 
failures of imagination. I feel like the technological sphere 
is one where we are seeing failures of imagination most 
frequently these days, when you look at the kinds of things 
that we can see with drones domestically.
    Drone swarm is where--we have seen drone swarms recently 
even in cartel arrests. We have seen them increasingly used 
just south of the border in Mexico by cartels and organized 
criminal elements.
    Mr. Gartenstein-Ross. The ability to do something 
destructive with a drone, something serious, grows constantly, 
as the commercialization of the drones becomes more 
sophisticated. We see this learning curve with all technology.
    Mr. Langevin. Any thoughts on what we can we do to counter 
the----
    Mr. Gartenstein-Ross. I agree with the legislation that you 
spoke of, I mean, criminalizing reckless uses of drones. I 
think giving some thought to areas in which drones cannot be 
flown. As we all know, drones can't be flown in the Capitol 
area. I think in areas where there--thinking about airport, 
routes that airlines fly and the ways that drones can be used 
to attack airplanes. Starting to think about how do you 
regulate this area? We are going to see a proliferation of 
technologies.
    One final thing is giving thought to privacy laws with 
respect to the drones. Because both in terms of our own 
personal privacy, but also the ability to surveil a target, I 
think there is a lot of dangers that exist there for 
assassinations and nefarious uses.
    Mr. Langevin. Thank you. To the panel, I know that in 
response to the Ranking Member's question on the messaging and 
such, many of you had mentioned ISIL's successful and continued 
use of social media to recruit individuals to inflict violence. 
What more do you feel that tech companies in the administration 
should be doing to counter these efforts of radicalization, 
especially inside the United States?
    Mr. Geltzer. I am happy to start. I am sure others will 
have thoughts as well. I mentioned before a couple of 
opportunities that I see for the companies to experiment with 
sharing more information with each other when it comes to 
terrorism-related content and the accounts associated with 
that. Maybe I will mention now, also, I think opportunities to 
share between Government and the tech companies. I am no longer 
privy to where those conversations stand, but it seems to me, 
much as the Government provides in the cyber arena threat 
information to companies, or when it comes to critical 
infrastructure threat information, there is an opportunity both 
for the Government to ensure that new trends, new trajectories 
and how terrorists are utilizing social media platforms and 
other communications technologies, new techniques, especially 
those that cross platforms which any one company is less likely 
to see but the Government may well see.
    My hope is that that is a more robust exchange, and it has 
been in the past, and a two-way exchange, in which the 
companies are sharing what they see, because they too, they are 
in their own pikes. They have unique insight into what is 
happening, and how users may be changing, how they regenerate 
accounts, for example, or how they link from their various 
pages or various accounts. For that dialog to be in real time, 
I think, would enhance both parties' ability to respond, the 
tech companies and the Government's.
    Mr. Langevin. Thank you. Anyone else on the panel care to 
comment?
    General Keane. Well, I just think we have to continue what 
we have started, and that is closer cooperation between the 
U.S. Government and our social media companies. There has been 
some success, as was already mentioned in my testimony, you 
know, with Facebook, Twitter, and YouTube, particularly 
Twitter, who has taken down over 1 million platforms as a 
result of that cooperation. We just need to continue that. I 
think there should be continuous dialog among other 
intelligence services, National Security Agency, Central 
Intelligence Agency and our social media companies to get the 
kind of cooperation that is necessary, because as everybody 
here sitting on this panel knows, radical Islamist 
organizations are certainly going to continue to use these 
outlets given the extraordinary achievement that the ISIS 
leaders were able to accomplish in very short order in building 
an organization and sustaining it, largely riding on the waves 
of technology.
    Mr. Langevin. Thank you all. I yield back.
    Chairman McCaul. The gentleman yields. The Chair recognizes 
General Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. Thanks to all four of 
you for being here today. I have just got to recognize 
Ambassador Crocker, my professor at National War College in our 
interagency class, if I remember that right. I also served with 
him in Iraq, so I know all the folks who served with you, see 
you as a hero. It is good to see you here, sir. He served in 
the worst spots, and the hardest spots in the world at our 
Nation's calling.
    As you all pointed out, ISIS has been attrited to the point 
where they have no real estate that they control in Iraq, two 
little portions of real estate in Syria. We are we going to 
continue attriting them, and I think of the Secretary of 
Defense's strategy of not one to try to retreat to the best of 
our ability and annihilating in place is the right strategy 
there.
    So we saw some kinetic operations that we have to do. But 
even if we take down these two pieces of real estate, there is 
still a threat. I think you pointed that out. There will be a 
terrorist threat that could reassert themselves at any point. 
So we had the military option, but we have to go after their 
finances. I think you have all done a lot of discussing here 
about going after their cyber recruiting capability and how 
they do that.
    But the one thing I have not heard, and I really think, 
getting to my National War College teachings, I don't think we 
have gone to the real center of gravity of ISIS and al-Qaeda 
and other Sunni extremists, it is the ideology. How do we 
counter this ideology? Because in the end, it is the--cyber's a 
tool, an avenue to transmit that ideology, finance is a tool. 
Until we figure out a way to counter this ideology, I don't 
know that we can really in the end, declare victory. I would 
welcome any of y'all's thoughts on that.
    Mr. Crocker. Well, thank you for an excellent question, 
Congressman. I have to say that had you been posing questions 
like that when you were at National War College, you would have 
been a distinguished graduate.
    Mr. Bacon. I was close, that close.
    Mr. Crocker. It is a key question. I come at this perhaps 
from a slightly different optic, it is--when I look at 100 
years of the modern Middle East, I see a successive failure of 
``isms,'' colonialism, imperialism, Monarchism, Arab 
nationalism, Ba'athism, Arab socialism, communism in south 
Yemen. They all have one thing in common: They failed to 
produce good governance and economic opportunity. Again, Mr. 
Chairman, the two points you made in your opening statement I 
think are just key.
    So they were overcome by the next ism. Now we have 
Islamism, they are also failing to show that they can govern 
properly. I see from some press reports that they seem to 
understand that going in, that a lot of the captured documents 
we have had access to shows that they were trying to get 
Government moving again; they just ran out of time, money, and 
luck and became victim to their own hateful ideology. They will 
yield to something else. Maybe it will be another run at 
Islamism. I don't know. But unless that core problem of 
governance in the region is tackled and improved, you will just 
see this over and over and over again. I would cite one example 
from my own experience, I was, as you noted, Mr. Chairman, an 
ambassador six times.
    In three of those countries, a predecessor of mine as the 
American ambassador was assassinated. Ours is inherently a 
dangerous profession. One of those was in Lebanon, Frank 
Malloy, the Ambassador. He was kidnapped and then executed by 
the popular front, Liberation of Palestine. Was that an early 
Islamist terror group? No. Their ideology was the antithesis of 
Islam, or Judaism, or Christianity. They were Communists. Was 
their leader a closet Islamic radical? Their leader, George 
Habash, was a Palestinian Christian. So the ideologies may 
shift and the motivations may shift. We need not to be overly 
distracted by that, but more focused on what gives them 
purchase. What we have seen consistently is a failure of 
governance, and that is a big problem to fix. But as General 
Keane said, if we don't stay engaged, it is only going to get 
worse.
    General Keane. You know, I think that is a profound 
question if I can comment on it. I ended my written statement--
my oral statement and written statement on that very question. 
You know, we dealt with two major ideologies in the 21st 
Century. One was Nazism, fascism which we destroyed by brute 
force, and the other was communism, which, I think, when you 
look at it, oversimplistically maybe, we beat it with better 
ideas, and those ideas was democracy and capitalism. I think 
that serves as an illustration on how to deal with this.
    We have to hold this horrific behavior that they 
demonstrate in their barbarism and killing people. We have to 
hold them accountable for that. That means that we have to use 
the tools of war to punish that behavior and stop it.
    But we also have to have better ideas. It gets back to what 
the Ambassador is talking about and that deals with the issues 
where--becomes the breeding ground for that. We have to stay 
engaged with our allies to help them, and help them shape. Make 
certain that they understand, even as Mohammed bin Salman is 
making transformational changes in Saudi Arabia, we have to 
stay in that dialog so they understand how important it is to 
get this right, to move these societies in the proper direction 
and move away from political and social injustice, and the lack 
of economic opportunities, and, also, to achieve stable 
governance in these countries. Until you do that and provide an 
alternative, these ideologies will continue to fester and grow.
    Mr. Bacon. Mr. Chairman, thank you for your time. I yield 
back. Unless you have--want to build on anything that was just 
said? OK, thank you.
    Mr. Chairman, I yield.
    Chairman McCaul. The gentleman yields. The Chair recognizes 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you for 
having this hearing and thank you to the witnesses for being 
here.
    I guess I have a couple of questions, one concern I have is 
about the fire--the foreign fighters dispersing into other 
areas. I am particularly interested in the Sahel area of 
Africa, because I have been in other briefings where it has 
been brought to my attention that the lack of our presence, the 
lack of any diplomatic presence, the lack of any sort of 
relationship-building presence is very dangerous in this area 
because it is one in which governance is very weak, 
opportunities are very fruitful, and we are not making the 
kinds of connections that we should be making to sort-of 
counteract some of this.
    So I would just like to get your thoughts on it, 
particularly as it relates to stripping our Department of State 
from the resources it needs to have a diplomatic presence. I 
will start with you, if you don't mind, Ambassador.
    Mr. Crocker. Thank you, ma'am. We are diplomatically 
represented in all of the countries of the Sahel. We have some 
assistance programs, but that budget has been under pressure 
for quite some time, as you know. There I would just make a 
short pitch for the third D: Defense, diplomacy, and 
development. USAID can be a very effective agency when it has 
the resources to do their work. I--we are doing great on 
defense; diplomacy and development have been seriously 
underfunded, and that does not make anybody's life any easier.
    Mrs. Watson Coleman. Can I just add on to that, or carry on 
on that area? So it is not so much guns anymore and blowing up 
people, it has lots to do with a new way in which ISIS can be a 
threat to us, whether or not it is cybersecurity, internet or 
whatever, but it is also about relationships, or what we can do 
in regions that help people from their economic perspective not 
to be so vulnerable to these terrorist groups as well.
    I don't get the sense that this administration gets that 
piece substantively about being on the ground, developing the 
better way of life for those individuals, creating those 
relationships and understanding those cultural issues. So, I 
would appreciate it if you would just give me your thoughts on 
that? Any of you, any, all. We can start with you, Ambassador.
    Mr. Crocker. Just two quick points. USAID, of course, has 
an administrator now, Mike Green, not someone I know 
personally, but I know his background, and I have colleagues 
still serving in USAID. He is quite highly regarded in the 
agency. We have a Secretary of State, as I just said, who 
starts with an enormous advantage in that building, simply 
because he is not Rex Tillerson. He does say, and he has done 
some of the right things there to reassure the institution that 
he has--that he will support them. So I think we have got some 
things in place that should yield good results.
    Mrs. Watson Coleman. One of the insecurities of the 
institution didn't just come from Tillerson, because I don't 
believe that Tillerson just decided all on his own that he 
wasn't going to staff the Department of State. I think that he 
was in align with whatever the President at that time thought 
was the best thing to do for whatever reason he thinks things 
are the best thing to do. But perhaps, he changed his position 
now that Pompeo is the Secretary of State.
    Is there anyone else who would want to comment on any of 
this? Thank you.
    General Keane. I would just say that certainly I agree with 
the Ambassador about our diplomatic commitment. The military 
command that deals with Africa, as you know, is AFRICOM, and 
our policy is to assist our partner countries in helping to 
build their military capability. That is a significant 
commitment we have made, and it is growing. When we are doing 
that, so you should be aware of it, we just don't teach them 
military skills. As part of that partnership that we have--and 
it doesn't make any difference where we are doing this in the 
world--we teach them how important it is for the military to 
submit to civilian control, and also to--while we are using 
weapons of war on a battlefield, we do that in concert with the 
values of our country.
    So those are some of things that are important to us as we 
are partnering with them. In terms of United States taking a 
direct hand, the only time that we will do that in Africa is 
when we are dealing with a terrorist organization that we 
believe could be a threat to the United States outside the 
region, then we would attack that ourselves. Otherwise, we want 
to partner with the host country and bring their military up to 
a capability where they can deal with the problem.
    Mr. Gartenstein-Ross. One thing I would add to General 
Keane's comments when it comes to counterterrorism capacity 
building is that I think this is an interesting area that 
Congress could look into with respect to the overall strategy 
of CT capacity building, which is very important. But when you 
look at the range of the countries involved, like not just the 
United States, but you have multiple western European countries 
who are doing this, there is an overarching lack of strategy, 
and sometimes even internal lack of coordination, where 
different countries often don't have visibility into what their 
allies are doing. Sometimes there is not visibility even within 
the U.S. Government. Sometimes there is a lack of coordinated 
strategy, and there is definitely a lack of consistent 
monitoring and evaluation metrics being used. So it is an area 
that is both very important, and where I feel that a wise look 
into how well the system is working, could, I think, help to 
improve it.
    Mr. Geltzer. If I may, just a brief point, drawing from 
experience at the Justice Department and the national security 
division there, and it is really just to accentuate some of the 
points others have made about how critical it is to have a 
robust State Department and State Department presence. Not only 
did the State Department do its own important diplomatic work, 
not only is it hand-in-glove ideally with the military, but law 
enforcement assistance and Homeland Security assistance, that 
often is facilitated by the State Department. So when you get a 
DOJ and FBI training investigators and prosecutors on how to 
handle terrorism cases, which are distinct and often difficult, 
when you have DHS reps working with countries on how to monitor 
their borders better, how to maintain their databases better, 
how to make those databases exportable to countries like us 
when we want to see who is traveling here from there. It is 
often the State Department that makes that collaboration 
possible, which is, again, another reason that you want that to 
be a robust presence.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Chairman, for your indulgence and thank you 
for your answers. I yield back.
    Chairman McCaul. The gentlelady yields back. The gentleman 
from Texas, Mr. Ratcliffe is recognized.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I want to thank all 
the panelists for being here today. I was struck by the 
remarkable consistency between your comments, and about ISIS 
and the ISIS caliphate being badly damaged, but not defeated.
    General Keane, we will start with you, because you twice 
made the comment about what it comes to defeating ISIS, you 
have talked about the need to drive ISIS out of the footholds 
that they have in Syria. I assume those footholds are being 
fueled by the desperation of the Syrian people with Assad in 
power, power that he has been able to maintain by using Iran, 
Hezbollah, and the IRGC and Russia.
    So I guess my question is, when we talk about the Salafi 
Jihadi movement and radical Islamist groups like ISIS and al-
Qaeda, do you agree that at least with respect to Syria, the 
greatest factor into whether or not it continues to exist or 
expand and contract is whether or not Assad is in charge in 
Syria?
    General Keane. Well, first of all, the--ISIS and al-Qaeda, 
which is a thriving organization in Syria, they are only there 
because there is a civil war there, and they were drawn to an 
area, and they were able to establish safe zones and take 
advantage of the circumstances that are there. So they are 
absolutely feeding on that.
    Certainly, Assad, a brutal dictator to be sure, you know, 
the so-called Arab Spring arose and the people wanted to turn 
him out. They were on their way to actually doing that when the 
Iranians and the Russians successfully intervened and 
stalemated the situation, and then the Russian military 
intervention, and the Iranian plus-up really changed the entire 
momentum. Assad is not going anywhere now. I mean, we have got 
to be honest about it. They have successfully propped up this 
dictator. What is going on in Geneva is a fantasy. I mean, the 
Russians and the Iranians may change Assad out because they 
want another Alawite dictator, but their military intervention 
has succeeded in indefinitely keeping Assad or somebody like 
him in power. We have long since squandered the opportunities 
to do something about that.
    Mr. Ratcliffe. So do you think it is an overstatement, 
then, to say that the Jihadi movement there through groups like 
ISIS, or al-Qaeda, or whatever else may come, will continue as 
long as Assad reigns over Syria or someone just like Assad?
    General Keane. Yes, the opposition to Assad is not going to 
go away either because they are very committed. They want a 
secular, most of them are democratic states, some of them, an 
Islamic state. So as long that continues, that will give 
radical Islam an opportunity. In that organization, we didn't 
talk about it here, but the al-Qaeda organization, the son of 
al-Nusra that operates in Idlib Province, is a very dangerous 
organization, which clearly has objectives to operate outside 
the region in Europe and against the United States. So yes, 
this is a breeding ground for radical Islam.
    Mr. Ratcliffe. So I guess that leads to what is an 
unpopular topic for a lot of my colleagues on both sides of the 
aisle when we talk about regime change. But it seems to me that 
our best option for addressing the threat of ISIS and al-Qaeda, 
and, frankly, the threat of, as you call it, a hegemonic threat 
from Iran, and its ability to propagate Hezbollah and groups 
like that, is a Syria without Assad. You intimated a little bit 
about how we would accomplish that. I know, the Free Syrian 
Army, and arming those. I have heard the arguments about, well, 
you are just arming terrorists.
    You made reference, though, to an Arab NATO earlier. I am 
wondering--I heard John Bolton recently talk about a regional 
Arab force in the area, and so my first question is, are you 
talking about the same thing there?
    General Keane. Yeah. Well, first of all, let me say that I 
don't believe this administration has a coherent strategy to 
deal with this problem. I know for a fact the previous 
administration certainly did not, actually I think enabled the 
problem to get worse. It is a complex problem, as Ambassador 
Crocker so accurately pointed out. You can be on either side of 
this issue and be making what seems to be a very plausible 
argument, to be frank about it, because it is such a disturbing 
situation.
    But in my view, the--Syria is a strategic anchor for the 
Iranian hegemonic movement and their ability to encroach on 
Israel and move out of Syria. It is also a melting pot for 
radical Islamists. I think we should take an interest in what 
is happening there and try to push back on it.
    Yes, what I would do is try to control the eastern part of 
Syria of the Euphrates River Valley, and I would bring some 
regional Arab nations in to help do some of that. That gets us 
back at the bargaining table. In other words, it gives us some 
political leverage. We are not going to go to Damascus with 
military force, we are not going to go into Syria with tens of 
thousands of U.S. forces. There is no political will to do 
anything quite like that. But there are ways that we can get 
into a negotiated--have some negotiating leverage, if we have 
some skin in the game, as opposed to just walking away from it.
    Mr. Ratcliffe. So you talk about political will, and my 
time is expired, but this is an important question. I want your 
perspective, I really would like it from all of you and 
hopefully some other panelists can follow up on it, but when 
you look at it from the other side of the ledger and political 
will, when we talk about this issue, do you think that Russia 
has enough invested that they would ever go to war over Syria?
    General Keane. Russia doesn't want to go to war over Syria. 
Russia certainly doesn't want to go to war with the United 
States over Syria. We don't need to be intimidated by Russia 
and Syria. We long since permitted them to take advantage of 
us. We--Secretary Kerry told the Russians, because they were 
rolling into Syria, do not, do not, under any circumstance, 
bomb the Syrian moderates who we were providing aid to by the 
Central Intelligence Agency. They had antitank missiles, and 
they were a formidable force as a result of that capability. 
The first people the Russians bombed were the Syrian monarchs 
with the antitank weapons. What did we do about that? Nothing. 
We should have told them right then and there, you do it that 
again, we are going to take down your airfield and we are going 
to go after your proxy force on the ground, the Syrian regime.
    In my judgment, that would not have led to World War III, 
it would not have led to a war with the Russians. They have a 
limited capability, have never been outside their region in 35 
years, they had 30 to 40 airplanes. We dominate that area in 
terms of military power. They would have backed up, but we had 
no will, we lacked will.
    Mr. Ratcliffe. I appreciate your insights, and I appreciate 
the Chairman's indulgence.
    Chairman McCaul. The gentleman yields. The gentlelady from 
Florida, Ms. Demings, is recognized.
    Ms. Demings. Thank you so much, Mr. Chairman. Thank you to 
all of our witnesses for being here with us today.
    If we could just go back for just a moment, I know we have 
talked quite a bit about tech companies and the role that they 
play. I certainly, as all of you know, that without the social 
media platforms, ISIS and other groups like them would not have 
had the opportunity to recruit, train, communicate as well as 
they have. I know you have talked about, you know, better 
sharing of information. I know they have taken some of the 
ISIS-related content down. Also you talked about international 
cooperation.
    If we just could go into some additional steps that tech 
companies could play to be held more accountable, or what could 
Congress do to assist in holding them more accountable? That is 
to all or any of the witnesses who would like to answer. Thank 
you.
    Mr. Geltzer. If you give me enough opportunities, I will 
keep adding to my list of things that I think are worth 
pressing on here.
    As I mentioned before, I do think while the companies have 
taken some steps in terms of hash-sharing and tool-sharing. It 
has been overwhelming focused on ISIS material. Congresswoman, 
you mentioned ISIS and other groups like it. That is a point 
worth pressing on, I think, as well. Because ISIS did, in a 
sense, revolutionize terrorist radicalization and recruitment 
on-line. They weren't the first. Al-Shabaab, al-Qaeda in the 
Arabian Peninsula, had used the internet in ways that were 
novel at the time, but ISIS really took that to another level. 
But others have learned of course, terrorist groups are 
learning, adaptive organizations. In particular, al-Qaeda and 
Syria, and General Keane mentioned them before, I agree with 
every word of his assessment of them as a real and possibly 
growing threat, they have changed how they use social media and 
websites and other platforms on-line to reach out, and recruit, 
and radicalize. But the company's tools, their focus thus far 
have really been on ISIS, and perhaps that's for good reason. 
ISIS was inspiring attacks world-wide, but the content from 
some of those other groups tends to remain up longer than the 
content from ISIS and that content is getting more and more 
worrisome, in my view. It is getting slicker, more 
sophisticated. It has always, of course, had a call for 
violence in it. So, to press the companies on taking the steps 
they have even made already and rapidly doing what they need to 
do internally, if that is resourcing, if that is staffing, to 
apply it to not just al-Qaeda in Syria whose names changes 
periodically, but they are fundamentally al-Qaeda in Syria, but 
also AQAP, and also al-Shabaab and also the groups probably yet 
to come, I think that is an important point, too.
    Ms. Demings. Thank you. Dr. Gartenstein-Ross?
    Mr. Gartenstein-Ross. Yes. Thank you for that great 
question, Representative. The first thing I would like to point 
to is that I agree with Dr. Geltzer's remarks about al-Qaeda 
playing the game quite a bit better, and allowing the material 
to stay up longer. I would like to point to you, though, that 
when the big companies focus on taking down material from a 
group, they are extraordinarily effective. If you look at the 
percentage of Facebook accounts, Jihadist Facebook accounts 
that are taken down before they put up a single post, it is 
massive. We know what the companies are using, it is artificial 
intelligence, it is tracking IP addresses, it is tracking 
associations, but they are very effective.
    Now in addition to that, the Chairman mentioned my past 
association with Google, I was a fellow at its think-tank, 
Jigsaw. They had a number of different very innovative 
initiatives, one thing they did was called the redirect method 
which took people who were looking for ISIS propaganda 
materials, and had a very ISIS-looking ad that then redirected 
them to a playlist with very neutral-looking, but anti-ISIS 
materials, that is a project I worked on with them. I think 
that talking to organizations like Jigsaw about the really 
interesting initiatives they have would be both helpful and 
enlightening for Members of Congress and the administration.
    So this brings me to kind-of the key point that I would 
have, which is when you look at well-resourced organizations 
like Facebook, or Google, or Twitter, they are able do this 
well, and they have a fair--at least when their eye is focused 
on the ball, they have a fair sense of what their obligations 
are. But smaller tech companies are constantly arising, they 
are players in the space, and they don't necessarily have 
either of the capabilities or the will to do what they need to 
remove this material. So I think a dialog about what Congress' 
role with respect to smaller companies, and also what larger 
companies like Facebook, like Google, like Twitter, what their 
role should be in helping to enhance the capabilities and the 
set of standards for smaller companies would be very helpful. 
In my time in Silicon Valley, I have had dialogs with people 
who worked for some of the larger companies, and they feel that 
this exact initiative is needed.
    Mrs. Demings. Thank you. Ambassador or General.
    General Keane. I don't have anything to add. Those are 
excellent comments.
    Mrs. Demings. All right. Thank you. Mr. Chairman, I yield 
back.
    Chairman McCaul. The gentlelady yields. The gentleman from 
Wisconsin, Mr. Gallagher, is recognized.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Dr. Geltzer, in your testimony, you talked about the fact 
that we have lost our key counterterrorism part on the ground 
in Syria, the Kurds. Now, we do still have 60,000 strong Syrian 
democratic force which our special operators are working with, 
many of which are Kurds. But I think your broader point is 
well-taken, which is to say, it is hard to support those forces 
when they are under assault from the Turks. At a time when our 
interests seem to be converging with Israelis in the Sunni or 
Gulf States, Turkey is an outlier. It is hard for me to make 
sense of Syria without somehow getting the Turks to play a more 
productive role.
    So I would be interested in your assessment and the 
assessment of the panel, what do we do with respect to Turkey? 
What are our leverage points, and how can we, as you rightly 
lay out, protect our Kurdish partners on the ground at the same 
time?
    Mr. Geltzer. Thank you, Congressman Gallagher. I am 
grateful for the question. It is a hard balance. Partly, we 
marvel in the coalition that the United States has largely put 
together to execute this campaign; and partly the breadth of 
that collation creates exactly the sort of problems that you 
identify. Those problems will only get exacerbated as the 
conflict evolves from the original one that brought together 
that coalition.
    In terms of how to keep Turkey in the fight, which we 
needed to be, NATO partner, Incirlik Air Base, critical to our 
counter-ISIS operations, while at the same time, getting Turkey 
to back off the Syrian Kurds, that strikes me as an effort 
partly just sheer attention. The relationship that was built 
between a number of folks at the highest levels of our 
government and a number of folks at their counterparts in 
Ankara, was one of almost constant dialog, so that there were 
no surprises, there was an understanding that before, and 
particularly the Syrian Kurds were moving to a certain place, 
there was a sense of what their objectives would be there, what 
weapons they would have from us there, and how we would ensure 
that those weapons, as best we could, did not get into the 
hands of others associated with the Kurds, who are of concern 
to Ankara for good reason.
    It seems, at some point, that that dialog broke down, and 
the type of assurance, truly daily at times, about where 
weapons were going and when the next operation against the next 
city would wrap up, and what the pause would look like, was 
either no longer being communicated, or, at least, no longer 
being believed.
    I think as with a lot of diplomacy, the best solution is 
high-level attention again, probably visits from some of our 
most senior folks to there to get back on track, to get the 
assault on the Afrin Kurds, off the table, so that the Kurds 
can move away from Afrin and to the Euphrates River Valley and 
take out the remnants of ISIS there, sir.
    Mr. Gallagher. Dr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Yeah, Representative Gallagher, I 
think that Turkey is a big concern, right. In addition to their 
military assault into Afrin, you have a slide toward 
authoritarianism within the country that we can all see. You 
have the scaling back of Ataturk's legacy, and the scaling back 
of secularism in the country, and you have something which has 
been well-reported, including in The Washington Post, which is 
support for some of the nastier and more radical elements of 
the Syrian fighters, including the ability of some known al-
Qaeda operatives to pass through Turkey's border and to operate 
within Turkey.
    I think all of this is a concern. I agree with Dr. Geltzler 
about the need for on-going dialog, and I think we need to do 
this with our eyes open about the fact of problems in that 
country are escalating from the perspective of the U.S. 
National interests.
    Mr. Gallagher. Sure. General Keane.
    General Keane. Yeah. Certainly, we do have challenges here. 
The Turkish leadership certainly wanted Assad to go and are 
very frustrated with the United States because we were playing 
such a weak hand in Syria, largely due, I think, because we saw 
the Iranian intervention and what they were trying to achieve, 
and we didn't want to rattle them in terms of the nuclear deal 
that was on the table, and negotiations that were taking place.
    Turkey also facilitated the growth of ISIS on their border 
openly. Turkey also facilitated the growth of al-Qaeda, because 
they strategically thought that those two radical groups would 
contribute to the removing Assad from power. That turned out 
not to be the case for ISIS, to be sure.
    I also think that we made a strategic mistake in the United 
States military when we sided with the Syrian Kurds. I think it 
made since tactically, they had will, they had skill, but 
growing that capacity when they are not interested truly in 
dealing with Arab lands and all the way down into southeastern 
part of Syria.
    What they are really interested in is carving out some 
territory for themselves in northern Syria, much to the 
detriment with our relationship with Turkey over this issue. I 
think we should back away from them, to be frank about it. I 
think that the relationship with Turkey, despite the Islamic 
nature of the country, they are a NATO country, they do matter. 
They have a significant military capacity that we have to 
value. We are using their air base. I think we have got to get 
back in the game with Turkey with some reasonable geopolitical 
expectations of what we want to achieve in Syria, which does 
not include a large dependency on the Syrian Kurds.
    Mr. Gallagher. I have run out of time. So I apologize, 
Ambassador Crocker. So maybe--I don't know if we end up with 
more time afterwards I will revisit this and I also want to 
argue with Dr. Geltzer about one more thing.
    Chairman McCaul. Great points. Gentlelady from Texas, Ms. 
Jackson Lee is recognized.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member, particularly for insightful comments that have been 
made, and thank the witnesses. Each of you are serving your 
Nation in a very important time. I, too, have known General 
Keane, first of all, in the series of work that he has done, 
and note that he was at the Pentagon on 9/11. That it must have 
been an experience that he will never want to repeat, never 
forget. We thank you for your service on that very tragic, 
heinous day.
    Ambassador, of course, we have crossed paths so many times 
in Iraq, Pakistan, and I believe Afghanistan, it just looks 
like we have seen each other, and you are certainly well-
deserved of the honor that was given to you. So let me just be 
very quick and say, democracy is good, but sometimes the 
inconsistency of our policies here in the United States can be 
very challenging. Elections come, and policies come and go. So 
in your comments, I would appreciate your thoughts about how 
that influences, but I would like you to comment on some 
holistic perspectives, and that is, the inconsistent policy, 
Ambassador, with Pakistan, the willingness to sanction Pakistan 
for what seems to be incompatibility, or lack of appreciation 
of any work that they are doing with the Taliban in 
Afghanistan, putting things on that those of us that work with 
Pakistan have to put out the fire.
    The issue of foreign fighters who now don't have maybe a 
foreign fight, well, I believe terrorism is franchised. Where 
are these 120,000-plus or others? Obviously, some lost in the 
battle. Where are these foreign fighters and how do we have to 
look at that?
    Three, this is Homeland Security, but I think we are 
interrelated with the State Department on the issues that we 
have. So if you can comment on the technology end, what policy 
does the Government need to have in speaking to our tech 
community in saying we need you to be as vigilant constantly as 
you have been, and maybe you need to embrace the small 
companies to help them out as well? Ambassador and General 
Keane, if you would.
    Mr. Crocker. Thank you, Congresswoman. It is a very 
important issue, our relationship with Pakistan, and it is 
worth spending a couple of minutes on. We are a great Nation, 
we are a great people. We do have our weaknesses. One of them 
is, we don't care about history, that is, history a pejorative 
for most Americans. History in this region, history defines 
today and predicts tomorrow. We are ignorant at our cost. 
Important here, because the Pakistanis have their own version 
of their history and our history with them. They will recall 
that after the Soviet invasion of Afghanistan, that we allied 
ourselves very closely with Pakistan. The anti-Soviet Jihad was 
staged out of Pakistan's northwest frontier province, organized 
by us with Pakistan as an absolutely critical partner.
    But once the Soviets were defeated, we decided our work 
there was done, even though we could see the Afghan civil war 
coming, which it did in all its horror. So not only did we pull 
out, we no longer needed Pakistan anymore, so we stopped 
requesting waivers to the Pressler amendment, which called for 
the cessation of all economic or military assistance to any 
country pursuing a nuclear weapons program. For a decade, the 
administration got a waiver for that. We didn't need Pakistan 
anymore, no more waivers, and they were completely sanctioned 
as far as any assistance from us went. Then the civil war broke 
out on their border. When the Taliban started to show some 
purchase, yep, the Pakistanis went in on that, because it 
looked like that might be the one group that could stop that 
civil war before it crossed their border.
    So where have we been post-9/11? Well, we are back. The 
Pakistanis asked themselves, Well, that is great. When are you 
leaving again? Because that is what you Americans do. I spent 3 
years there. It is an imperfect relationship, goodness knows, 
and the Pakistanis do a lot of things that are bad for us and 
bad for themselves. But a country of 185 million people, 
nuclear weapons, I think we have to be careful how we see and 
use that relationship. In essence what the Pakistanis are 
saying, or said to me was: If you think we are going to go 
after the Taliban in Pakistan, turn them into a mortal enemy of 
ours, as you get set to leave, because that is what you do, you 
are going to leave, and then we will have that existential 
threat, if you think we are going to do that, you are 
completely crazy.
    So I would have liked to have seen the administration say, 
as the President did, that we are no longer driven by the 
calendar in Afghanistan, we are driven by conditions. We have 
important National security interests, we are going to be there 
to protect them with the force that we need at the time. To 
then have said to the Pakistanis, you worry about us going, we 
are not going this time. We have just made it clear, it is 
about conditions. So isn't it time to rethink your own 
strategic logic? Oh, by the way, while you are thinking that 
through again, do you remember what happened to Mohammad Akhtar 
Mansoor, Mullah Omar's successor, killed with a U.S. military 
drone strike with--inside Pakistan. That while you are working 
it out, any Taliban leader we can find, we are going to pop 
him. Maybe it will be in Balochistan, maybe it will be in 
Rawalpindi. So why don't you take those two elements, and see 
if you want to develop a different strategic logic. That is not 
what we did.
    So once again, we are in this confrontational relationship 
with Pakistan over Afghanistan, largely. It is not going to 
take us anywhere good. But again, that failure to demonstrate 
strategic patience hurts us very greatly, there and really 
elsewhere in the region, and, indeed, in the world.
    General Keane. Yes, I certainly agree and associate myself 
with everything that the Ambassador said. Listen, we created so 
many of these problems for ourselves with 17 years, you know, 
involved in this war in Afghanistan. Largely due--the 
protraction of the war is largely due to our own policy 
decisions. Because very quickly, after the Taliban were deposed 
as we know, we made a decision to go into Iraq. That 
immediately made the war in Afghanistan is what we call in the 
military economy of force, actually they were put on a diet. 
That was from 2002, that is when we started taking resources 
away, all the way to 2008. That was the first time we put any 
substantive resources back into Afghanistan, and that is 
because the surge had succeeded in Iraq, and we were able to 
reduce our forces, and we finally had capacity again.
    So this protraction has been due to our policy. I think 
President Obama had the right idea to do a surge in 
Afghanistan, but unfortunately, he pulled our forces out after 
15 months, and that was a tragic mistake.
    So that is what has given this pause to the Pakistanis who 
are harboring two safe havens of the Afghan Taliban inside 
their country. That also leads to the protraction of the war.
    For the first time now, we have had a President who has 
said I am committed to see this thing through, but that is 
going take more than rhetoric. There is going to have to be 
some real commitment here. We may have to adjust the force 
levels and other capacity levels based on the conditions that 
are taking place in that country and have flexibility. We also 
have to keep the American people engaged and explain, why is 
this important to us? We don't do a very good job of that. Now, 
President Bush didn't do a very good job of it, President Obama 
didn't do a very good job of it, and I am hoping this President 
will see the need to do that. Why Afghanistan matters, and why 
we don't want it to become a safe haven for terrorists again, 
for which to attack our allies, and also the American people.
    Chairman McCaul. The gentlelady yields back. I believe 
Congressman Gallagher had a brief wrap-up question.
    Ms. Jackson Lee. Thank you.
    Mr. Gallagher. Thank you, Mr. Chairman. I have inherited 
General Perry's time, so I will try and channel him with this 
one. So Dr. Geltzer, I think, if I understand your argument, is 
that the--what you call anti-Muslim and an anti-Muslim travel 
ban, the risk is that it would alienate key Muslim communities 
in the Middle East that we need to participate in the fight 
against ISIS, right? So my question is, is indeed that 
happening? How would we know? What is our metric for 
alienation? I mean, I perceive there to be, at least among 
leadership in key Sunni Muslim countries, a closer relationship 
between this administration and the last.
    Mr. Geltzer. Thanks for the opportunity to speak to that. 
So I probably worry most about the communities right here, I 
think there are communities here that have been fairly 
outspoken in saying that the travel ban, among other policies, 
but very much at the heart of those policies, feels to them to 
target them. In fact, I think they have good reason to feel 
that way, given how it has been framed as a campaign promise, 
and now delivered on as a Presidential policy. Those 
communities strike me as the ones that have an opportunity to 
intervene with those who might be prone to radicalization, or 
even radicalizing in ways that we would all like to see, 
ideally before those sorts of individuals become on the law 
enforcement route. You know, if you talk to FBI, they take no 
pleasure in finding teenagers who are on the road to material 
support, trying sometimes to dissuade them or their parents 
from staying on that path, and ultimately doing what the FBI 
should do, which is if they committed a crime, arresting them, 
and charging them for it. But ideally, communities can find 
ways to intervene sooner than that, and a number of studies 
have shown what is called a bystander effect, that in something 
like 70 to 80 percent of cases, those who are on the 
radicalizing path, give some indication of that to those who 
know them well, their family, their teacher, their community 
members. But if you alienate those communities, I am not sure 
they feel prone to intervene in those ways, or ultimately in 
the way that you might need by simply calling law enforcement.
    I do think the overseas communities are important too, it 
is hard to get the data on exactly how foreign communities 
react to U.S. domestic policies, but it would seem, at a 
minimum, unlikely to appeal to them to have this religion-
centric approach to filtering those who come to this country, 
rather than the very, very careful individualized vetting of 
which I am fully supportive, and that I think should always be 
strengthened to insure that we are using all of our 
intelligence to stop threats from entering our borders.
    Mr. Gallagher. I pressed my luck with time. So Mr. 
Chairman, thank you for your indulgence.
    Chairman McCaul. Thank you, I want to thank the witnesses 
for a very enlightening discussion. Ambassador, you mentioned 
failures of imagination, and a good friend of mine, Admiral 
Inman in Austin, worked with the 9/11 Commission to coin that 
phrase. Not to plug my book, but I wrote a book called Failures 
of Imagination to talk about what we have to imagine, what the 
threats could be and what keeps us up at night. It has been a 
great discussion and I want to thank all of you for being here 
today.
    Pursuant to committee rule VII(D) the hearing record will 
be open for 10 days. Without objection, this committee stands 
adjourned.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Question From Ranking Member Bennie G. Thompson for Ryan C. Crocker
    Question 1. How have the Trump administration's funding cuts to 
stabilization and assistance programs, particularly to countries in the 
Middle East, Africa, and South and Southeast Asia, including the Sahel 
region, hurt our ability to defend against terror threats to the 
homeland and to our interests abroad?
    Answer. Response was not received at the time of publication.
    Questions From Honorable Shelia Jackson Lee for Ryan C. Crocker
    Question 1. How have the Trump administration's funding cuts to the 
State Department hurt our ability to defend against terror groups that 
are threatening the homeland and our interests abroad?
    Answer. Response was not received at the time of publication.
    Question 2. What should be our polices in terms of technology 
companies and ensuring that technology platforms cannot be misused by 
terrorist groups?
    Answer. Response was not received at the time of publication.
      Question From Honorable Kathleen M. Rice for Ryan C. Crocker
    Question. We currently do not have a Senate-confirmed Assistant 
Secretary of State for Near Eastern Affairs. The Trump administration 
has failed to even nominate people to the Ambassador positions for many 
of our key allies in the Middle East, including Jordan, Egypt, Saudi 
Arabia, Turkey, and Qatar. How can the United States conduct 
comprehensive foreign policy, including working with our regional 
partners to combat ISIS, without these critical diplomatic positions?
    Answer. Response was not received at the time of publication.
 Question From Ranking Member Bennie G. Thompson for John M. ``Jack'' 
                                 Keane
    Question. How have the Trump administration's funding cuts to 
stabilization and assistance programs, particularly to countries in the 
Middle East, Africa, and South and Southeast Asia, including the Sahel 
region, hurt our ability to defend against terror threats to the 
homeland and to our interests abroad?
    Answer. Response was not received at the time of publication.
 Questions From Honorable Sheila Jackson Lee for John M. ``Jack'' Keane
    Question 1. How have the Trump administration's funding cuts to the 
State Department hurt our ability to defend against terror groups that 
are threatening the homeland and our interests abroad?
    Answer. Response was not received at the time of publication.
    Question 2. What should be our polices in terms of technology 
companies and ensuring that technology platforms cannot be misused by 
terrorist groups?
    Answer. Response was not received at the time of publication.
Question From Ranking Member Bennie G. Thompson for Daveed Gartenstein-
                                  Ross
    Question. How have the Trump administration's funding cuts to 
stabilization and assistance programs, particularly to countries in the 
Middle East, Africa, and South and Southeast Asia, including the Sahel 
region, hurt our ability to defend against terror threats to the 
homeland and to our interests abroad?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Joshua A. Geltzer
    Question 1. How have the Trump administration's funding cuts to 
stabilization and assistance programs, particularly to countries in the 
Middle East, Africa, and South and Southeast Asia, including the Sahel 
region, hurt our ability to defend against terror threats to the 
homeland and to our interests abroad?
    Answer. Sustainable counterterrorism requires not only addressing 
immediate threats to American interests but also building the 
foundations for undercutting the drivers of radicalization in the 
future. Stabilization and assistance programs can be critical to 
achieving that longer-term goal, and thus to ensuring that the United 
States and its partners do not find themselves in repeated cycles of 
using near-term military, law enforcement, and other tools to address 
immediate terrorist threats only to see similar threats reemerge 
because terrorists are able to capitalize on economic and political 
vacuums to recruit and radicalize. Cutting funding for such programs 
suggests a worrisomely militaristic and short-sighted approach to 
counterterrorism that bodes poorly for the enduring reduction of 
terrorist threats to Americans at home and abroad.
    Question 2. What do you deem to be effective counterterrorism 
tactics used by the private sector--as well as tactics used by the 
Government, or some combination of Government and the private sector--
to marginalize ISIS on-line?
    Answer. Leading technology companies deserve credit for the steps 
that they have taken to attempt to address ISIS's on-line recruitment 
efforts, even if more work remains to be done. In December 2016, 
Facebook, Google (including YouTube), Microsoft, and Twitter announced 
a hash-sharing coalition through which they would share the digital 
signatures of terrorism-related content removed by any single company 
so that the other companies could consider removing and blocking such 
content from their own platforms. Six months later, the same companies 
announced that they would be forming the Global Internet Forum to 
Counter Terrorism in order to cooperate more broadly to address 
terrorist threats on-line, such as by sharing the tools that they use 
to identify terrorism content in the first place. Earlier this month, 
the Forum announced that it would be augmenting the earlier hash-
sharing database by identifying terrorism content not yet found on any 
single platform but identified externally so that participating 
companies could consider preventing that content from being uploaded in 
the first place. These are all worthwhile forms of cooperation 
undertaken by the private sector to prevent terrorism content from 
remaining unchallenged on major platforms. While these efforts live in 
the private sector, the companies undertaking them would surely benefit 
from being informed by the Government on an on-going basis as to what 
it is seeing in terms of new on-line tactics and behavior from 
terrorists.
    The private sector has also experimented with admirable efforts to 
try to marginalize ISIS on-line by augmenting positive counter-
messaging. Most notable is the ``redirect method'' pioneered by 
Google's Jigsaw. Under that approach, when a user searches on Google in 
ways that suggest a potential interest in joining ISIS, the sponsored 
(paid) content section of Google's search results features links to 
alternative messaging that might lead the user away from joining ISIS, 
such as links to stories about ISIS's hypocrisy or about parents who 
have lost their children to ISIS as foreignfighters. Similarly, 
Microsoft's search engine, Bing, has devoted its sponsored content 
section to counter-messaging in response to ISIS-related searches. 
These are helpful steps; and they, too, would benefit from the 
Government's distinctive, on-going expertise in what counter-messaging 
themes and tactics may be particularly effective.
    Question 3. What role should the Government play in regulating 
content versus partnering and empowering technology companies to self-
regulate?
    Answer. While technology companies find themselves, in key 
respects, on the front lines of the terrorist challenge posed by 
activities on their platforms, the Government has a significant role to 
play in informing and thus augmenting the companies' efforts. The 
companies, as private-sector entities, enforce their own terms of 
service, but the Government has an unparalleled expertise in what new 
messages terrorists are promoting on-line, how terrorists are 
rejuvenating on-line accounts once those are suspended, how terrorist 
activities on-line are crossing different platforms, and more. That 
sort of information should, to the maximum extent possible consistent 
with the critical protection of sources and methods, be shared with 
technology companies as expeditiously as feasible so that policy 
officials, lawyers, and perhaps most importantly engineers at the 
companies can make swift, effective use of it in addressing terrorists' 
latest tactics on-line. Companies should, in turn, welcome and utilize 
that information and provide detailed feedback to the Government on 
what is particularly useful to the companies' efforts and what more can 
be provided to empower and accelerate those efforts.
    Question 4. How should we be judging technology companies' work, 
both in terms of taking down ISIS content and implementing more 
holistic policies to counter violent extremism on technology companies' 
respective platforms? What more can be done?
    Answer. Technology companies have made significant strides in 
recent years in contesting ISIS's virtual presence and facilitating the 
offering of counter-messaging. The steps noted above, from the 
formation of the hash-sharing coalition to the founding of the Global 
Internet Forum to Counter Terrorism to the pioneering of the redirect 
method, deserve praise. At the same time, ISIS's on-line presence 
remains both significant and concerning--indeed, threatening. That, in 
turn, suggests that there is value in technology companies at least 
experimenting with additional approaches to addressing ISIS's 
persistent on-line recruitment efforts. For example, social media and 
file-upload platforms might try utilizing advances in machine learning 
to identify--based on similarity in content, similarity to accounts 
associated with related content, logo and language identification, and 
other factors--new pieces of terrorism content before such content has 
been uploaded, and then block its emergence. Reviewers employed by the 
companies could then assess ``pre-blocked'' content and permit the 
uploading of anything erroneously blocked, such as a legitimate news 
story about terrorism; the machine learning would also be improved by 
the feedback generated by these corrections.
    Additionally, social media and file-upload platforms might share 
with one another the information associated with accounts suspended for 
disseminating terrorism content, in addition to the existing sharing of 
that content itself. This would allow other companies to determine 
whether they have any accounts on their platforms associated with the 
same information and scrutinize those accounts for any terrorism-
related violations of their respective terms of service.
    Also, search engines might expand their current offering of links 
to counter-messaging from the sponsored content section of search 
results to the primary (non-sponsored) search results themselves, 
sometimes called the ``organic'' search results. This expansion would 
boost the salience of that counter-messaging and thereby increase the 
likelihood that potential recruits to ISIS are exposed to the counter-
messaging that might cause them to reconsider joining the group or at 
least delay their radicalization process.
    Questions From Honorable Kathleen M. Rice for Joshua A. Geltzer
    Question 1a. I have introduced two bills, including one that has 
passed the House with this Committee's support, to require Federal 
agencies to research if terrorist groups are using virtual currencies 
like Bitcoin to fund their illicit operations.
    To the best of your knowledge, is ISIS using these virtual 
currencies?
    Answer. Based on reports from leading sources such as the Council 
on Foreign Relations \1\ and the RAND Corporation,\2\ it is my 
understanding that ISIS has made use of virtual currencies. I do not 
have independent knowledge of such use, however. Research on this issue 
by Federal agencies would seem timely and important.
---------------------------------------------------------------------------
    \1\ Ankit Panda, ``Cryptocurrencies and National Security,'' 
Council on Foreign Relations, February 28, 2018, https://www.cfr.org/
backgrounder/cryptocurrencies-and-national-security.
    \2\ David Manheim et al., ``Are Terrorists Using 
Cryptocurrencies?,'' RAND Corporation, April 21, 2017, https://
www.rand.org/blog/2017/04/are-terrorists-using-cryptocurrencies.html; 
Antonia Ward, ``Bitcoin and the Dark Web: The New Terrorist Threat?,'' 
RAND Corporation, January 22, 2018, https://www.rand.org/blog/2018/01/
bitcoin-and-the-dark-web-the-new-terrorist-threat.html.
---------------------------------------------------------------------------
    Question 1b. If so, what more should Congress and the Federal 
Government be doing to stop them?
    Answer. Assuming that, as the credible reports noted above and 
others suggest, terrorist groups are in fact using virtual currencies, 
Congress and the Executive branch should consider how to apply to such 
emerging currencies an adaptation of the ``know your customer'' regime 
that, in the context of traditional banking, has proven helpful in 
counter-terrorist financing efforts. Adapting that regime--implemented 
through the Customer Identification Program put in place after 9/11--
from the highly regulated context of traditional banking to the 
notoriously unregulated context of virtual currencies poses a 
significant challenge, and doing so effectively may well require 
transnational cooperation. But that regime has helped to crack down on 
(though of course not entirely eliminate) terrorists' efforts to move 
money 

through the traditional banking system by requiring banks to obtain 
identifying information from those seeking to transfer funds of 
sufficient size to trigger the requirement; and an analogous approach 
to virtual currencies may prove helpful in addressing new forms of 
terrorists' financial flows.

                                 <all>
</pre></body></html>
